<html>
<title> - BROWN V. BOARD OF EDUCATION AT 65: A PROMISE UNFULFILLED</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                             
                      BROWN V. BOARD OF EDUCATION
                      AT 65: A PROMISE UNFULFILLED

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

             HEARING HELD IN WASHINGTON, DC, APRIL 30, 2019

                               ----------                              

                           Serial No. 116-19

                               ----------                              

      Printed for the use of the Committee on Education and Labor


    Available via the: https://edlabor.house.gov or www.govinfo.gov
    
    
    
    
    
        BROWN V. BOARD OF EDUCATION AT 65: A PROMISE UNFULFILLED
        
        




 
                      BROWN V. BOARD OF EDUCATION
                      AT 65: A PROMISE UNFULFILLED

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 30, 2019

                               __________

                           Serial No. 116-19

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




    Available via the: https://edlabor.house.gov or www.govinfo.gov
    
    
    
    
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
36-594               WASHINGTON : 2021 
    
    
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 30, 2019...................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     5
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     7
        Prepared statement of....................................     8

Statement of Witnesses:
    Brittain, Mr. John C., Professor of Law, University of the 
      District of Columbia Law School............................    11
        Prepared statement of....................................    13
    Darling-Hammond, Ms. Linda, ED.D., President and CEO, 
      Learning Policy Institute..................................    21
        Prepared statement of....................................    23
    Carranza, Mr. Richard A., New York City Schools Chancellor, 
      New York City Department of Education......................    80
        Prepared statement of....................................    83
    Losen, Mr. Daniel J., M.ED., J.D., Director, Center for Civil 
      Rights Remedies, The Civil Rights Project At UCLA..........    51
        Prepared statement of....................................    53
    Pierre, Mr. Dion J., Research Associate, National Association 
      of Scholars................................................    75
        Prepared statement of....................................    77
    White, Ms. Maritza, Parent Avocate...........................    46
        Prepared statement of....................................    48

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Article: Desegregated Differently........................   129
    Chairman Scott:
        The Federal Role and School Integration..................   144
        A Bold Agenda for School Integration.....................   185
        Prepared statement from the Advancement Project's 
          National Office........................................   204
        Prepared statement from ASCD.............................   210
        23 Billion...............................................   214
        Fractured The Accelerating Breakdown Of America's School 
          Districts 2019 Update..................................   226
        Lost Instruction.........................................   272
        Link: United States Government Accountability Office 
          (GAO) Report April 2016................................   310
        Link: United States Government Accountability Office 
          (GAO) Report March 2018................................   310
        Link: Long-Run Impacts Of School Desegregation and School 
          Quality On Adult Attainments...........................   311
    Questions submitted for the record by:
        Fulcher, Hon. Russ, a Representative in Congress from the 
          State of Idaho 





        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota 



        Chairman Scott 




        Stevens, Hon. Haley M., a Representative in Congress from 
          the State of Michigan..................................   315
    Responses to questions submitted for the record by:
        Mr. Brittain.............................................   322
        Mr. Carranza.............................................   338
        Ms. Darling-Hammond......................................   342
        Mr. Losen................................................   349


                      BROWN V. BOARD OF EDUCATION

                      AT 65: A PROMISE UNFULFILLED

                              ----------                              




                        Tuesday, April 30, 2019

                       House of Representatives,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:17 a.m., in Room 
2175, Rayburn House Office Building. Hon. Robert C. 
``Bobby''Scott [chairman of the committee] presiding.
    Present: Representatives Scott, Davis, Courtney, Fudge, 
Sablan, Wilson, Bonamici, Takano, Adams, DeSaulnier, Norcross, 
Jayapal, Wild, Harder, McBath, Schrier, Underwood, Hayes, Omar, 
Trone, Stevens, Lee, Trahan, Foxx, Roe, Walberg, Guthrie, 
Grothman, Stefanik, Allen, Smucker, Banks, Walker, Cline, 
Fulcher, Taylor, Watkins, Wright, Meuser, Timmons, and Johnson.
    Staff Present: Nekea Brown, Deputy Clerk; Emma Eatman, 
Press Aide; Christian Haines, General Counsel ; Ariel Jona, 
Staff Assistant; Stephanie Lalle, Deputy Communications 
Director; Andre Lindsay, Staff Assistant; Kota Mitzutani, Staff 
Writer; Max Moore, Office Aid; Jacque Mosely, Director of 
Education; Veronique Pluviose, Staff Director; Lakeisha Steele, 
Professional Staff; Loredana Valtierra, Education Policy 
Fellow; Banyon Vassar, Deputy Director of Information 
Technology; Adrienne Rolie Webb, Education Policy Fellow; Cyrus 
Artz, Minority Parliamentarian, Marty Boughton, Minority Press 
Secretary; Courtney Butcher, Minority Director of Coalitions 
and Members Services; Bridget Handy, Minority Legislative 
Assistant; Blake Johnson, Minority Staff Assistant; Amy Raaf 
Jones, Minority Director of Education and Human Resources 
Policy; Hannah Matesic, Minority Director of Operations; Kelley 
McNabb, Minority Communications Director; Jake Middlebrooks, 
Minority Professional Staff Member; Brandon Renz, Minority 
Staff Director; Mandy Schaumburg, Minority Chief Counsel and 
Deputy Director of Education Policy; Meredith Schellin, 
Minority Deputy Press Secretary and Digital Advisor; and Brad 
Thomas, Minority Senior Education Policy Advisor.
    Chairman SCOTT. Good morning. The Committee on Education 
and Labor will come to order. Welcome everyone. I note a quorum 
is present and the Committee is meeting today in a legislative 
hearing to hear testimony on ``Brown v. Board of Education at 
65: A Promise Unfilled''.
    Today, we are here to discuss our responsibility to fulfill 
the promise of educational equity, which was ordered 65 years 
ago in the Supreme Court's landmark decision in Brown v. Board 
of Education.
    On May 17, 1954, the Supreme Court unanimously rejected the 
doctrine of separate but equal and struck down lawful school 
segregation in America. In the Court's opinion, Chief Justice 
Earl Warren wrote the following: ``In these days, it is 
doubtful that any child may reasonably be expected to succeed 
in life if denied the opportunity of an education. Such an 
opportunity, where the State has undertaken to provide it, is a 
right which must be made available to all on equal terms''.
    He went on to say that ``in the field of public education, 
the doctrine of `separate but equal' has no place. Separate 
educational facilities are inherently unequal.''
    But the Court's historic ruling was not the end of school 
segregation, it was the beginning of a long and difficult 
struggle to unwind centuries of systemic inequality that have 
influenced every aspect of American life. Today's inequity in 
education, housing, economic opportunity, criminal justice, and 
other areas are the legacy of our history. Rather than seeking 
to forget the wounds of the past, we must confront them. The 
Federal Government actually contributed to racial segregation 
and inequity, so the Federal Government must be part of the 
solution.
    Evidence and experience demonstrate that when we accept our 
responsibility to desegregate schools, we have the power to do 
so. The passage of the Civil Rights Act and the Elementary and 
Secondary Education Act, paired with strong Federal enforcement 
of the Supreme Court's mandate to desegregate schools, produced 
a period of sustained progress from the late 1960s through the 
1980s. The share of Black students attending majority white 
schools jumped from roughly 0 percent to more than 40 percent.
    Segregation does not just isolate people, it isolates 
opportunity. A recent report found that there is currently a 
$23 billion dollar racial funding gap between school districts 
serving students of color and school districts serving 
predominantly white students.
    The relationship between integration and resources is often 
overlooked, but cannot be overstated. Court-ordered 
desegregation not only substantially reduced racial 
segregation, it also led to a dramatic increase in per-pupil 
spending, an average increase of more than 20 percent per 
student. As a result, tests score for Black students improved 
and the achievement gap narrowed. Integration does not work 
because children of color are incapable of achieving without 
peers, integration works because it impacts school spending and 
school practices.
    Even Stanford Professor Dr. Eric Hanushek, a consistent 
critic of Federal investment as a solution to challenges in 
education, found that the period of Federal investment, coupled 
with strong enforcement of desegregation, produced impressive 
learning gains for children of color without adversely 
affecting white students. But just as we have demonstrated the 
power to fix this problem, we have the demonstrated power to 
make it worse. The election of President Nixon started a steady 
retreat from Federal enforcement of school desegregation, which 
was continued by Presidents Reagan and first President Bush. 
More importantly, conservatives recognized that the same 
institution that started the movement toward school 
desegregation could be used to stop it.
    Starting in 1969, Republican Presidents appointed the next 
11 Supreme Court justices. In fact, all but 4 of the last 19 
Supreme Court judges since 1969 have been appointed by 
Republicans. They have been able to form a block of 
conservatives who questioned the constitutionality of 
desegregation, chipping away at the Federal Government's 
ability to compel bold and meaningful strategies to fully 
integrate schools. For example, a few years ago, when districts 
in Kentucky and Washington State wanted to voluntarily 
desegregate their schools, the Supreme Court said no.
    Rather than standing firmly in support of school diversity, 
Members of Congress in both parties bowed to political pressure 
and passed legislation that was intended to undermine school 
desegregation. One example was the appropriations rider that 
started in the 1970s that prohibited the use of Federal funds 
for transportation of students for the purpose of school 
integration. That rider was just removed last year.
    After four decades without Federal support for 
desegregation, we are right back where we started. A 2016 GAO 
report found that public schools had grown more segregated by 
race and class than at any time since 1960. According to the 
GAO, high-poverty schools where 75-100 percent of the students 
were low-income and Black or Latino increased from 9 percent of 
public schools in 2000, to 16 percent in 2013. That's 16 
percent of public schools where students were both low-income 
and Black and or Hispanic. At least 75 percent of those 
students are Black and Hispanic and low income. And they said 
it's getting worse. It's not surprising the report also found 
that segregated schools offered demonstrably worse opportunity 
for a quality education.
    Unfortunately, the key ingredients that combined to unwind 
our progress towards educational equity are still in place 
today. We have a conservative Supreme Court that is likely to 
strike down school diversity policies as to approve them and an 
Administration that does not promote diversity and equity in 
education.
    One of Secretary DeVos' first actions as Secretary of 
Education was to eliminate the grant program called Opening 
Doors, Expanding Opportunities grant program, a voluntary 
program to support school districts in creating locally driven 
strategies to increase school diversity and improve student 
achievement and equity of educational opportunity for 
disadvantaged students. That program would have helped local 
jurisdictions develop desegregation plans that could withstand 
constitutional challenges.
    In the two and a half years since, the Department of 
Education has rescinded an Obama guidance that provided 
recommendations to schools seeking to boost diversity in 
classrooms and campuses, tried to delay the implementation of a 
long-overdue rule designed to address racial disparities in the 
identification, placement, and discipline of children of color 
with disabilities--a recent court decision found that attempt 
to be illegal--dismissed more than 1,200 civil rights 
investigations that were started under the Obama 
Administration, produced a final School Safety Report that 
cited bogus ``research'' and blamed Federal civil rights 
enforcement, without evidence, for school shootings, and 
eliminated a 2014 guidance package that was issued to help 
schools address the clear evidence that Black boys and students 
with disabilities received harsher treatments than their 
classmates in punishments, they received harsher punishments. 
And the guidance showed how you could reduce those disparities 
without jeopardizing school safety.
    As the White House and the Courts continue to push us in 
the wrong direction, Congress cannot sit on the sidelines. The 
stakes are too high. Beneath all of the slogans and sound 
bites, there is the simple fact that desegregating schools is 
the most powerful tool we have to improve the lives of children 
of color and their families. Evidence shows that the racial 
achievement gap can be virtually eliminated just by exposing 
Black students to desegregated schooling. One report, 
considered the most rigorous and comprehensive to date, showed 
that Black students who attended desegregated schools 
throughout their K-12 career were more likely to graduate from 
high school, attend college, attend a more selective school, 
and complete college.
    The benefits are not merely limited to academics. Just five 
years of attending court-ordered desegregated schools 
significantly increased Black workers' earnings and 
significantly reduced their likelihood of experiencing poverty.
    Attending desegregated schools starting in elementary 
school is highly correlated with reduced chances of adult 
incarceration. These statistics reveal both the incredible 
value of desegregating schools and the tragic reality that we 
have failed to do so. Just how many children have been 
disadvantaged because of our failure to desegregate the 
schools? How many adults have been incarcerated, how many 
families have been impoverished just because we have failed to 
uphold a Supreme Court decision rendered 65 years ago? How many 
more will we lose until that promise is kept?
    As our witnesses today will discuss, the work of 
desegregating schools and protecting students' civil rights 
will not be easy. Addressing America's legacy of racial 
discrimination is uncomfortable and complicated. And, as if we 
don't have enough to deter members of this institution, it can 
be unpopular. But the civil rights movement has shown that we 
can change public opinion rather than just waiting for it to 
change. Today, 85 percent of Americans say that Martin Luther 
King made things better for Black Americans. But, in 1966, a 
Gallup survey showed that two-thirds of Americans had an 
unfavorable opinion of Dr. King. Two years later, in the 
immediate aftermath of his assassination, another survey found 
that 31 percent of Americans felt that he had brought it on 
himself. If our approach is to wait until it is popular and 
easy, we will never do what is right, and generations of 
students and communities will be robbed of the opportunity to 
reach their full potential.
    Today, we can and will discuss the benefits and trade-offs 
of various proposals for achieving educational equity. But the 
premise of this discussion is not open to debate. Public 
education is not a private commodity, it is a public good. The 
Federal Government is obligated to ensure, just as Justice 
Warren wrote, that it is made available to all on equal terms.
    And I yield to the Ranking Member, Dr. Foxx, for the 
purpose of an opening statement.
    [The statement of Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Today, we are here to discuss our responsibility to fulfill the 
promise of educational equity, which was ordered 65 years ago in the 
Supreme Court's landmark decision in Brown v. Board of Education.
    On May 17, 1954, the Supreme Court unanimously rejected the 
doctrine of separate but equal and struck down lawful school 
segregation in America. In the Court's opinion, Chief Justice Earl 
Warren wrote the following:
    ``In these days, it is doubtful that any child may reasonably be 
expected to succeed in life if he is denied the opportunity of an 
education. Such an opportunity, where the state has undertaken to 
provide it, is a right which must be made available to all on equal 
terms.''
    He went to say that ``in the field of public education, the 
doctrine of 'separate but equal' has no place. Separate educational 
facilities are inherently unequal.''
    But the Court's historic ruling was not the end of school 
segregation, it was the beginning of a long and difficult struggle to 
unwind centuries of systemic inequality that have influenced every 
aspect of American life.
    Today's inequity in education, housing, economic opportunity, 
criminal justice, and other policy areas are the legacy of our history. 
Rather than seeking to forget the wounds in our past, we must confront 
them. The federal government contributed to racial segregation and 
inequality, so the federal government must be part of the solution.
    Evidence and experience demonstrate that when we accept our 
responsibility to desegregate schools, we have the power to do so. The 
passage of the Civil Rights Act and the Elementary and Secondary 
Education Act - paired with strong federal enforcement of the Supreme 
Court's mandate to desegregate schools - produced a period of sustained 
progress from the late 1960s through the 1980s. The share of Black 
students attending majority white schools jumped from roughly zero 
percent to more than 40 percent.
    Segregation does not just isolate people, it isolates opportunity. 
A recent report found that there is currently a $23 billion racial 
funding gap between school districts serving students of color and 
school districts serving predominantly white students.
    The relationship between integration and resources is often 
overlooked, but cannot be overstated. Court-ordered desegregation not 
only substantially reduced racial segregation, it also led to a 
dramatic increase in per-pupil spending - an average increase of more 
than 20 percent per student.
    As a result, tests score for Black students improved and the 
achievement gap narrowed. Integration does not work because children of 
color are incapable of achieving without white peers. Integration works 
because it impacts school spending and school practices.
    Even Stanford Professor Dr. Eric Hanushek, a consistent critic of 
federal investment as a solution to challenges in education, found that 
the period of federal investment coupled with strong enforcement of 
desegregation produced impressive learning gains for children of color 
without adversely affecting white students.
    But just as we have demonstrated the power to fix this problem, we 
have the demonstrated power to make it worse.
    The election of President Nixon started a steady retreat from 
federal enforcement of school desegregation, which was continued by 
Presidents Reagan and first President Bush. More importantly, 
conservatives recognized that the same institution that started the 
movement toward school desegregation could be used to stop it.
    Starting in 1969, Republican presidents appointed the next 11 
Supreme Court justices. In fact, all but four of the last 19 Supreme 
Court justices since 1969 have been appointed by Republicans. They have 
been able to form a bloc of conservatives who questioned the 
constitutionality of desegregation, chipping away at the federal 
government's ability to compel bold and meaningful strategies to fully 
integrate schools.
    For example, a fear years ago, when districts in Kentucky and 
Washington State wanted to voluntarily desegregate their schools, the 
Supreme Court said no.
    Rather than standing firm in support of school diversity, Member of 
Congress in both parties bowed to political pressure and passed 
legislation that was intended to undermine school desegregation.
    One example was the appropriations rider that started in the 1970s 
that prohibited the use of federal funds for transportation of students 
for the purpose of school integration. That rider was just removed last 
year.
    After four decades without federal support for desegregation, we 
are right back where we started. A 2016 GAO report found that public 
schools had grown more segregated by race and class than at any time 
since 1960. According to GAO, high-poverty schools where 75-100 percent 
of the students were low-income and Black or Latino increased from 9 
percent of public schools in 2000, to 16 percent in 2013.
    That's 16 percent of public schools where students were both low-
income and Black or Hispanic. And they said it's getting worse. It's 
not surprising the report also fund that segregated schools offered 
demonstrably worse opportunity for a quality education.
    Unfortunately, the key ingredients that combined to unwind our 
progress towards educational equity are once again in place today. We 
have a conservative Supreme Court that is likely to strike down school 
diversity policies rather than approve them and an Administration that 
does not accept its responsibility to promote diversity and equity in 
education.
    One of Secretary DeVos' first actions as Secretary of Education was 
to eliminate the Opening Doors, Expanding Opportunities grant program, 
a voluntary program to support school districts in creating locally 
driven strategies to increase school diversity and improve student 
achievement and equity of educational opportunity for disadvantaged 
students. That program would have helped local jurisdiction develop 
desegregation plans that could withstand constitutional challenges.
    In the two-and-a-half years since, the Department of Education has:
    - Rescinded an Obama-era guidance that provided recommendations to 
schools seeking to boost diversity in classrooms and campuses;
    - Tried to delay the implementation of a long-overdue rule designed 
to address racial disparities in the identification, placement, and 
discipline of children of color with disabilities. A recent court 
decision found that attempt to be illegal;
    - Dismissed more than 1,200 civil rights investigations that were 
started under the Obama Administration;
    - Produced a final School Safety report that cited bogus 
``research'' and blamed federal civil rights enforcement - without 
evidence - for school shootings; and
    - Eliminated a 2014 guidance package that was issued to help 
schools address the clear evidence that Black boys and students with 
disabilities receive harsher treatments than their classmates in 
punishments. The guidance showed how you could reduce those disparities 
without jeopardizing school safety.
    As the White House and the courts continue to push us in the wrong 
direction, Congress cannot sit on the sidelines. The stakes are too 
high.
    Beneath all of the slogans and soundbites, there is the simple fact 
that desegregating schools is the most powerful tool we have to improve 
the lives of children of color and their families.
    Evidence shows that the racial achievement gap can be virtually 
eliminated just by exposing Black students to desegregated schooling.
    One report - considered the most rigorous and comprehensive to date 
- showed that Black students who attended desegregated schools 
throughout their K-12 career were more likely to graduate from high 
school, attend college, attend a more selective school, and complete 
college.
    The benefits are not merely limited to academics. Just five years 
of attending court-ordered desegregated schools significantly increased 
Black workers' earnings and significantly reduced their likelihood of 
experiencing poverty.
    Attending desegregated schools starting in elementary school is 
highly correlated with reduced chances of adult incarceration.
    These statistics reveal both the incredible value of desegregating 
schools and the tragic reality that we have failed to do so.
    How many children have been disadvantaged because of our failure to 
desegregate schools? How many adults have been impoverished just 
because we have failed to uphold a Supreme Court decision rendered 65 
years ago?
    How many more will we lose until that promise is kept?
    As our witnesses today will discuss, the work of desegregating 
schools and protecting students' civil rights will not be easy. 
Addressing America's legacy of racial discrimination is uncomfortable 
and complicated. And, as if we don't have enough to deter Members of 
this institution, it can be unpopular.
    But the civil rights movement has always moved public opinion, 
rather than just waiting for it change. Today, 85 percent of Americans 
say Dr. Martin Luther King made things better for Black Americans.
    But, in 1966, a Gallup survey found that two-thirds of Americans 
had an unfavorable opinion of Dr. King. Two years later, in the 
immediate aftermath of his assassination, another survey found that 31 
percent of Americans felt that he brought it on himself.
    If our approach is to wait until it is popular and easy, we will 
never do what is right, and generations students and communities of 
color will be robbed of the opportunity to reach their potential.
    Today, we can and will discuss the benefits and trade-offs of 
various proposals for achieving educational equity. But the premise of 
this discussion is not open to debate.
    Public education is not a private commodity. It is a public good. 
The federal government is obligated to ensure - just as Justice Warren 
wrote - that it is made available to all on equal terms.
    Now I will yield to Ranking Member, Dr. Foxx, for the purpose of an 
opening statement.
                                 ______
                                 
    Mrs. FOXX. Thank you, Mr. Chairman. I thank you for 
yielding.
    It is clear that in your--as a result of your very long 
opening statement that you care passionately about this issue, 
and I will tell you I care passionately about it also.
    Thank you for convening today's hearing to talk about the 
Supreme Court's landmark decision in Brown v. Board of 
Education. The issue of segregation in schools deserves our 
full attention and I welcome this opportunity to discuss how 
the turning point of Brown v. Board has shaped the last 65 
years for students across the United States.
    Thanks to the relentless courage of Linda Brown, her 
parents, and civil rights leaders, the abhorrent segregationist 
policy of ``separate but equal'' was recognized for what it 
was, inherently unequal. With the Supreme Court's decision, the 
Nation took a first step toward greater equality and 
opportunity for all people.
    Unfortunately, a first step does not equate to overnight 
change. We know from history that even after Brown v. Board the 
majority of segregated schools did not integrate until many 
years later. Even with the legal barriers to equal education 
broken, achieving true equality for all students has followed a 
steep and arduous path.
    My Democrat colleagues have largely been critical of the 
Department of Education's enforcement of civil rights law, but 
the reality is Secretary DeVos is following the letter and 
spirit of the law and regulations. The Secretary is thoroughly 
investigating discrimination claims and acting swiftly when 
these claims are found to be true. Not only is discrimination 
in state-sanctioned segregation repugnant and illegal, it also 
prevents growth and success for all children. Studies have 
shown that integrated schools promote greater understanding and 
tolerance and result in improved educational outcomes, 
particularly for students of color.
    As a former educator and lifelong learner, I believe in my 
whole heart that an excellent education is the key to lifelong 
success. It is the path out of poverty for millions and 
provides students with the tools and skills they need to build 
a successful life. All students, regardless of zip code, 
deserve access to greater educational opportunities.
    The legacy of Brown v. Board of Education should be to 
empower parents with the ability to choose the right school for 
their child and eliminate the ability of the State to consign 
children to low performing schools with no means of escape.
    School choice gives parents and families the opportunity to 
break the cycle of poverty and enroll their child in an 
institution that challenges them, develops their skills and 
intellect, and encourages them to reach higher. Studies show 
that when students are given the freedom to attend school in a 
learning environment best suited to their abilities, they 
graduate from high school and pursue post secondary education 
at higher rates. We will hear today about the power of choice 
to transform lives.
    In the 65 years since Brown v. Board we have not yet 
achieved true equality. We continue to strive towards a future 
where all students, regardless of race or color, have the 
chance to succeed. But while there is more work to be done, we 
have seen some encouraging trends.
    Between 2010-2011 and 2016-2017 the high school graduation 
rate for Black students increased by 11 percent, more than any 
other demographic. Additionally, dropout rates for Black 
students declined between 2000 and 2016, while Black enrollment 
and attendance at postsecondary institutions rose over the same 
period.
    Change is slow. Change is too slow. The progress we've made 
should be understood if it's going to continue.
    I thank the witnesses before the Committee today and I look 
forward to our discussion about how we can keep working to 
secure greater equality and even greater opportunity for 
America's students.
    I yield back, Mr. Chairman.
    [The statement of Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    Thank you for yielding.
    And thank you for convening today's hearing to talk about the 
Supreme Court's landmark decision in Brown v. Board of Education. The 
issue of segregation in schools deserves our full attention, and I 
welcome this opportunity to discuss how the turning point of Brown v. 
Board has shaped the last 65 years for students across the United 
States.
    Thanks to the relentless courage of Linda Brown, her parents, and 
civil rights leaders, the abhorrent segregationist policy of ``separate 
but equal'' was recognized for what it was: inherently unequal. With 
the Supreme Court's decision, the nation took a first step toward 
greater equality and opportunity for all people.
    Unfortunately, a first step does not equate to overnight change. We 
know from history that even after Brown v. Board, the majority of 
segregated schools did not integrate until many years later. Even with 
the legal barriers to equal education broken, achieving true equality 
for all students has followed a steep and arduous path.
    My Democrat colleagues have largely been critical of the Department 
of Education's enforcement of civil rights law, but the reality is 
Secretary DeVos is following the letter and spirit of the law and 
regulations; the Secretary is thoroughly investigating discrimination 
claims and acting swiftly when those claims are found to be true. Not 
only is discrimination and state-sanctioned segregation repugnant and 
illegal, it also prevents growth and success for all children. Studies 
have shown that integrated schools promote greater understanding and 
tolerance, and result in improved educational outcomes, particularly 
for students of color.
    As a former educator and a lifelong learner, I believe with my 
whole heart that an excellent education is the key to lifelong success. 
It is the path out of poverty for millions and provides students with 
the tools and skills they need to build a successful life. All 
students, regardless of zip code, deserve access to greater educational 
opportunities.
    The legacy of Brown v. Board of Education should be to empower 
parents with the ability to choose the right school for their child and 
eliminate the ability of the state to consign children to low-
performing schools with no means of escape. School choice gives parents 
and families the opportunity to break the cycle of poverty and enroll 
their child in an institution that challenges them, develops their 
skills and intellect, and encourages them to reach higher. Studies show 
that when students are given the freedom to attend school in a learning 
environment best suited to their abilities, they graduate from high 
school and pursue postsecondary education at higher rates. We will hear 
today about the power of choice to transform lives.
    In the 65 years since Brown v. Board, we have not yet achieved true 
equality. We continue to strive towards a future where all students, 
regardless of race or color, have the chance to succeed. But while 
there's more work to be done, we have seen some encouraging trends. 
Between 2010-2011 and 2016-2017, the high school graduation rate for 
Black students increased by 11 percent, more than any other 
demographic. Additionally, dropout rates for Black students declined 
between 2000 and 2016, while Black enrollment and attendance at 
postsecondary institutions rose over the same period.
    Change is slow. Change is too slow. The progress we have made 
should be understood if it's going to continue. I thank the witnesses 
before the committee today, and I look forward to our discussion about 
how we can keep working to secure greater equality, and even greater 
opportunity, for America's students.
                                 ______
                                 
    Chairman SCOTT. Thank you. Without objection, all other 
Members who wish to insert written statements in the record may 
do so by submitting them to the Committee Clerk electronically 
in Microsoft Word format by 5:00 p.m. on May 14.
    I will now introduce our witnesses.
    John C. Brittain was appointed Acting Dean of the 
University of the District of Columbia David A. Clarke Law 
School on July 2018. He joined the UDC faculty in 2009 as a 
tenured professor. He has previously served as Dean of the 
Thurgood Marshall School of Law in Texas Southern University in 
Houston, is a tenured professor at the University of 
Connecticut School of Law for 22 years, and Chief Counsel, 
Senior Deputy Director of the Lawyers' Committee for Civil 
Rights under the Law in Washington, D.C.
    He writes and litigates on issues in civil and human 
rights, especially educational law.
    Linda Darling-Hammond is the Charles E. Ducommun Professor 
of Education Emeritus at the Stanford University and Founding 
President of the Learning Policy Institute, created to provide 
high quality research for policies that enable equitable and 
empowering education for each and every child.
    She is the past President of the American Education 
Research Association, author of more than 30 books and 600 
other publications on education quality and equity, including 
the award-winning book ``The Flat World and Education: How 
American's Commitment to Equity Will Determine Our Future''.
    In 2008 she directed the Education Policy Transition Team 
for President Obama and she was recently appointed President of 
the California State Board of Education.
    Ms. Maritza White has worked at Cornerstone Schools of 
Washington, D.C. since 2014 as business manager. Before that 
she served as a facilitator and office manager for the 
Community family Life Services here in D.C. for 4 years. Prior 
to that she was field operations supervisor with the U.S. 
Census Bureau where she managed, recruited, and developed field 
staff and analyzed special reports.
    She also worked for Prince George County's public school 
system as a program developer and substitute teacher for almost 
a decade.
    She received her BS in organization management from 
Columbia Union College, now Washington Adventist.
    She enrolled her son in a D.C. private school through the 
D.C. Opportunity Scholarship Program.
    Daniel Losen is the Director of the Center for Civil rights 
Remedies at UCLA's Civil Rights Project, where his work is 
focused on racial disproportionality in special education, 
graduation rates, and school discipline since 1999.
    Included among his edited books of scholarly research are 
``Racial Inequity in Special Education'' and ``Closing the 
School Discipline Gap: Equitable Remedies for Excessive 
Exclusion''.
    The organization's award-winning report, Are We Closing the 
School Discipline Gap, describes school districts that are 
making the most progress, as well as those with the most 
serious and persistent disparities along the lines of race, 
gender, and disability status.
    Mr. Dion Pierre is a researcher with the National 
Association of Scholars in New York City. He has been a 
researcher at the National Association of Scholars for 2 years 
where he researches racial self-segregation on American college 
campuses.
    He was previously a Fellow at the Public Interest 
Fellowship, and he received his bachelor's degree in political 
science in 2016 from Hofstra University. He co-sponsored an 
article for Minding the Campus, a higher education website that 
advocates for campus free speech, entitled ``What Damore's Memo 
Taught Google'', in which he argues that diversity initiatives 
in STEM field earth hurt Asian students.
    Richard A. Carranza is chancellor of New York City 
Department of Education, the largest school system in the 
Nation. He is responsible for educating 1.1 million students in 
over 1,800 schools.
    Prior to New York City he was superintendent of the Houston 
Independent School District, the largest School District in 
Texas and the seventh largest in the United States. Before that 
he served the San Francisco Unified School District, first as 
deputy superintendent, then as superintendent. Before moving to 
San Francisco he was a Northwest Region Superintendent for 
Clark County School District in Las Vegas.
    He began his career as a high school bilingual social 
studies and music teacher, then as principal, both in Tucson in 
Arizona.
    He is the son of a sheet metal worker and hairdresser and a 
grandson of Mexican immigrants. He credits his public school 
education for putting him on the path to college and a 
successful career.
    We appreciate all of our witnesses for being with us today.
    Let me remind you that your written statements will appear 
in full in the hearing record pursuant to Committee Rule 7d and 
Committee practice. We ask you to limit your oral presentation 
to a 5 minute summary.
    I also want to remind the witnesses that pursuant to Title 
18 U.S. Code, Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing 
document, or material fact presented to Congress or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, I would ask you to make 
sure that you press the button on the microphone in front of 
you so that the Members can hear you. As you begin to speak the 
light in front of you will turn green, after 4 minutes it will 
turn yellow signifying 1 minute remaining, and when the light 
turns red, we ask you to please wrap up.
    We will let the entire panel make their presentations 
before we move to Member's questions. And when answering a 
question, remember again to press the button to put your 
microphone on.
    We will first recognize Dean Brittain.

TESTIMONY OF JOHN C. BRITTAIN, PROFESSOR OF LAW, UNIVERSITY OF 
              THE DISTRICT OF COLUMBIA LAW SCHOOL

    Mr. BRITTAIN. Good morning, Chairman Scott, Ranking Member 
Dr. Foxx, and other Members of this Committee.
    My name is John Brittain, and I am a professor at the David 
A. Clarke School of Law at the University of the District of 
Columbia. I appear today as an expert on educational equity 
with 50 years of experience, in theory and in practice, in the 
pursuit of educational equity.
    In preparation for this testimony and report, I sought the 
collaboration with the National Conference of School Diversity 
and the Poverty & Race Action Council, and more.
    The social science research clearly demonstrates the 
benefits of school diversity and integration. Students 
attending social, economically and racial diverse schools have 
better test scores and higher college attendance rates than 
peers in more economically and racially segregated schools. 
Racial diversity in schools also carries long-term benefits. 
These include subsequent reduced segregation in neighborhoods, 
college, and workplaces, higher levels of social cohesion, and 
reduced likelihood of racial prejudice.
    Despite these benefits, 25 percent of public school 
students attend schools in which there are more than 75 percent 
of the students eligible for free and reduced price lunch. And 
in urban areas nearly half of all students attend high poverty 
schools. These trends have been getting worse over the past 
decade. The Government Accounting Office recently found that 
the percentage of K-12 public schools with high poverty and 
African American and Hispanic students increased, up by 9 
percent in 2000-2001, and 16 percent in 2013-2014.
    The Stronger Together School Diversity Act of 2016 would 
empower communities to counter the encroaching re-segregation 
we are facing. As a result of these research findings, the 
National Coalition for School Diversity supported the Stronger 
Together School Diversity Act of 2016.
    All policies in pursuit of racial and ethnic equality in 
education are completely voluntary today. The fact is, school 
assignment plans designed to promote diversity and integration 
in education are double voluntary. School authorities 
voluntarily create plans and parents, with mutual acquiescence 
by their children, voluntarily participate in these diversity 
plans. We must confront, in this 21st century, the twin social 
policy issues of poverty and inequality, especially in 
education. Segregation in education is harming our future.
    Thus I applaud the Committee for remembering the history of 
Brown in this hearing.
    Since President Donald Trump's inauguration in 2017, his 
Administration has suspended vital gains in civil rights, in 
education, and housing, to name a few. In the field of 
education, as you mentioned, the Secretary of Education Betsy 
DeVos withdrew the policy on school diversity and integration, 
developed by the Obama Administration, to the combined efforts 
of the Justice Department and the U.S. Department of Education 
Office for Civil Rights.
    The preceding Administration of President George W. Bush 
has erroneously interpreted a Supreme Court case in 2007 named 
``Parents Involved in Community Schools v. Seattle School Dist. 
No. 1''.
    While the Trump Administration's termination of the School 
Diversity Guidance Policy may create a chilling effect on 
school districts that want to voluntarily diversify and pursue 
integration, the policy established by the Supreme Court in 
2007 remains good law.
    As this Nation currently enters the last 6 years to the 
first quarter of the 21st century with hyper racial segregation 
in many sectors of society and reductionist school enforcement 
and educational policies by the Federal Government, the Courts, 
and the Executive Branch, the question to ask is, is the Nation 
approaching the end of the Second Reconstruction?
    In closing, a majority of the Supreme Court in a 1996 
landmark case called Sheff v. O'Neill, a majority of the 
Justices said this, although the Constitutional basis for the 
plaintiff's claims to the deprivation that they themselves are 
suffering, that deprivation potentially has impact on the 
entire State and its economy, not only at social and cultural 
fabric, but on the material wellbeing, on its jobs, industry, 
and business.
    Economic and business leaders say that our State's economic 
wellbeing is dependent on more skilled workers, technically 
proficient workers, literate and well educated citizens. So it 
is not just that their future depends on the State, the State's 
future depends on them. Finding a way to cross the racial and 
ethnic divide has never been more important than it is today.
    [The statement of Mr. Brittain follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman SCOTT. Thank you.
    Dr. Hammond.

 TESTIMONY OF LINDA DARLING-HAMMOND, ED.D., PRESIDENT AND CEO, 
                   LEARNING POLICY INSTITUTE

    Ms. DARLING-HAMMOND. Chairman Scott, Ranking Member Foxx, 
Members of the Committee, thank you for your invitation to 
participate in this hearing. I am honored to be here today to 
discuss the Federal role in fulfilling the promise of Brown v. 
Board of Education.
    I will make three points in my brief comments and offer 
recommendations about what the Federal Government can do to 
fulfill the promise of Brown.
    First, a large body of research has found that diverse 
schools make a positive difference in a wide range of student 
outcomes. I am one of more than 550 scholars who signed onto a 
social science report filed in the Parents Involved lawsuit 
that demonstrated the benefits of integrated schools include 
gains in math, science, and reading achievement and graduation 
rates. It also included greater cross-cultural understanding, 
reduced prejudice, improved critical thinking skills, and 
increased likelihood that students will live and work in 
integrated settings as adults.
    In a recent study looking at the effective court-ordered 
desegregation, economist Rucker Johnson found that Black 
students' graduation rates climbed by 2 percentage points for 
every year the student attended an integrated school, and they 
also experienced an increase in wages and a decrease in poverty 
as adults. Meanwhile, White students experienced no declines in 
outcomes. These gains were tied to the fact that integrated 
schools had higher per people spending and smaller student-
teacher ratios, among other resources.
    Second, the Federal role in this domain has made a positive 
difference when it is well used and a negative difference when 
it is poorly used. During the 1960s and '70s Federal support 
for desegregation led to a dramatic decline in segregation. 
This, combined with Federal efforts to equalize educational 
opportunity, cut the achievement gap between Whites and Blacks 
by more than half in reading and a third in math between 1971 
and 1988.
    Had we stayed on course with these initiatives there would 
have been no Black-White achievement gap by the year 2000. 
Unfortunately, nearly all of these policies were eliminated 
during the 1980s and have not been reinstated. The achievement 
gap today is 30 percent larger in reading and math than it was 
30 years ago.
    In addition, as some administrations sought to get 
desegregation orders lifted, resegregation occurred--as you can 
see in the chart that is about to go up--desegregation orders 
produced a sharp decline in segregation, but typically an even 
sharper increase in resegregation when they were lifted. Today, 
about half as many Black students experience desegregated 
schools, as was true 30 years ago.
    To address these trends, as well as confusion about 
appropriate policy strategies for advancing integration, the 
Obama Administration's voluntary guidance for states and 
districts, consistent with the Court's decision, assisted many 
districts I described, some of them in my written testimony, 
that have demonstrated how integration can be successfully 
pursued in ways that honor parent and student choice and expand 
opportunities.
    These include choice based plans in San Antonio, Texas, 
Hartford, Connecticut--which John Brittain had a lot to do with 
bringing about--and Omaha, Nebraska, among others.
    The Federal Government can work to advance these efforts by 
first of all reestablishing Federal grant programs that support 
voluntary efforts to create more diverse schools, expanding 
innovative programs to attract diverse students, revising 
boundaries, training diverse educators. Many of these types of 
policies are described in the Strength in Diversity Act.
    Second, the Federal Government can eliminate the 
legislative prohibition against district use of Federal funds 
for bussing that remains in the General Education Provisions 
Act, so that funds can be used for transportation.
    Third, we could increase funding under ESSA in support of 
school diversity, including funding for magnet schools, which 
has been flat for many years. Those schools have been shown to 
increase both integration and student achievement--as well as 
Title I funds for school improvement
    Fourth, we can encourage greater diversity in charter 
schools, which are in general more segregated than other public 
schools, by setting expectations for fair and open admissions 
and recruitment, like those laid out by the Century Foundation 
in a recent publication.
    Fifth, we can ensure that states enforce ESSA's Integrative 
Student Assignment policies, which required districts to 
minimize segregation and assign these students to schools and 
classrooms.
    Sixth, we can encourage states, districts, and schools to 
report on opportunity indicators required by ESSA, including 
the degree of integration, school funding, and teacher 
qualifications.
    And, finally, we could reestablish the Department of 
Education's guidance on school diversity to inform state and 
local efforts to create more diverse schools.
    Sixty-five years after the highest Court declared that 
separate but equal has no place in our Nation's public school 
system, we still have considerable work to do.
    Thank you for your focus on this issue.
    I am happy to answer any questions the Members may have.
    [The statement of Ms. Darling-Hammond follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman SCOTT. Thank you.
    Ms. White.

          TESTIMONY OF MARITZA WHITE, PARENT ADVOCATE

    Ms. WHITE. It is most fitting that I would be charged with 
examining the fulfillment of Brown v. Board of Education, now 
on its 65th anniversary, as this is also the year of my 65th 
birthday.
    I was born 3 months after the Brown v. Board Supreme Court 
decision, which stated that separate educational facilities are 
inherently unequal. The decision, however, did not stipulate or 
suggest how this interracial segregation would be implemented. 
States were only ordered to desegregate with all deliberate 
speed.
    This is the era in which I was born. Inherent in the 
Court's decision was the intention that all children through 
desegregation would have equal opportunity to quality 
education. Was the mandate fulfilled or was this a platitude of 
well meaning words? Did desegregation produce the achievements 
that were inherently promised? Through my own life experience I 
would soon find out.
    I speak to you today not as a learned scientist regarding 
the accumulated data on this subject, but instead I speak to 
you from the heart and experiences of a parent who has had the 
opportunity and sometimes distress of finding ways to 
accomplish the major responsibility of my life, which is to 
assist my son, Michael, to succeed in the world. I didn't have 
all the data, nor did I have preconceived ideas about what was 
best for Michael. I, as a parent, had to be empowered to make 
the best decision for my son.
    Although the initial step to desegregate schools may have 
seemed successful, the desired outcomes were not obtained. 
Although Black schools achieved some tangible improvements, 
they were not to the extent of their White counterparts. And 
with the Blacks being marginalized into all Black 
neighborhoods, Black students didn't have the real educational 
opportunities that their White counterparts had.
    Two years after Michael was born we were in a tragic car 
accident that left my husband unable to work. With a 
constrained budget we had to look for alternative for schooling 
for Michael. We recognized that education was one of the ways, 
if not the only way, to escape the ravages of the inner city. 
Brown v. Board intended to empower parents to make the best 
educational choice for their children. This intended parental 
empowerment was not real if my child had no opportunity to 
attend the best or better school. For our family, that changed 
50 years after the Brown v. Board decision in 2004 with a 
proactive program. The D.C. Opportunity Scholarship Program, 
was implemented. It allowed our family to choose among public, 
charter, and private schools for our son to attend. We were 
open to exploring all options.
    My research indicated that school choice had led to 
improving all three types of school through competition that 
required all three school types to increase innovative 
programming, increase school accountability, increases in 
parental engagement, and providing options for low income 
students of color.
    Michael attended public school from Head Start through 
first grade. We applied for that D.C. Opportunity Scholarship 
and received it. This opened our options, so Michael 
transferred to NHB, which was a private school, for the second 
grade.
    Michael was not able to return to NHB for the third grade 
because the class was full. And although I was sad, we had no 
problem with Michael returning to public school. Michael was 
reenrolled in a public school, but several weeks into the 
school year Michael was bullied at school and was in a fight 
with three other boys, resulting with him having a bloody lip 
and other lacerations.
    I was less concerned about Michael's bloody lip than I was 
concerned about the school's poor handling of the situation. I 
was never advised about the fight by the school. The school's 
excuses were not good enough for me. Michael needed to be in a 
safe place and this public school was not it. So I vowed that 
he would never return to an unsafe school. I called D.C. OSP 
and they advised that the scholarship was still available to 
Michael.
    After a few days of researching our alternatives we found 
Cornerstone Schools of Washington, D.C. I walked in and it was 
a totally different environment than the public school that he 
had attended. The class size was half the size of that of the 
public school, the students appeared eager and ready to learn, 
the academic training was rigorous, and oh yes, he felt safe, 
and I felt safe for him.
    Michael was a student at Cornerstone from third to seventh 
grade. We continually evaluated our educational choices and in 
the eighth grade Michael transferred to a charter school. He 
returned to Cornerstone in the 9th grade and graduated as 
salutatorian in 2016. He received several scholarships and 
matriculated at the University of Maryland, College Park.
    Our family is able to speak to the effectiveness of school 
choice because we have been privileged to have experienced 
public, private, and charter schools.
    Through our varied educational experiences we can truly say 
that education is not a one size fits all experience. We can 
truly say that our family has, and other families have the 
right to decide throughout their child's education what is best 
for their child to succeed. But without school choice many 
families do not have the option for their child to receive the 
equal education promise.
    I shudder to think of where our son, Michael, would be if 
he did not have school choice available to him. No, indeed, 
Brown v. Board of Education mandate has not been fulfilled. But 
school choice is a step in the right direction in reaching the 
mandated outcome.
    Today, Michael White is a successful example of how school 
choice in all three arenas of public, private, and charter 
school can be utilized for the successful education of low 
income statements.
    To close, middle and upper income students have choice 
already by virtue of their income and social status. School 
choice allows low income families to participate in the 
American dream afforded by equal education.
    Thank you.
    [The statement of Ms. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman SCOTT. Thank you.
    Mr. Losen.

 TESTIMONY OF DANIEL J. LOSEN, M.ED, J.D.,DIRECTOR, CENTER FOR 
    CIVIL RIGHTS REMEDIES, THE CIVIL RIGHTS PROJECT AT UCLA

    Mr. LOSEN. I would like to thank Chairman Scott and the 
Members of the House Committee on Education and Labor for 
inviting me to testify on this important topic.
    I am Dan Losen, the Director of the Center for Civil Rights 
Remedies at UCLA's Civil Rights Project, which is dedicated to 
highlighting concerns about racial inequity in our public 
schools and to bringing the best research to bear on remedies.
    I consider Brown's promise to be the equitable opportunity 
to learn. The focus of my presentation is how the disparate 
impact of unjustified school discipline policies contributes to 
racial differences in the days of lost instruction, and thereby 
to inequities in the opportunity to learn. Stopping the 
disparate impact from unjustified discipline is critically 
important, therefore, to fulfilling Brown's promise.
    The first slide shows data from 2015-16 and the racial gap 
for secondary students in terms of days of lost instruction for 
100 enrolled due to out of school suspensions. While the gaps 
within the districts are disturbing, so too are the differences 
between the districts. Compare Richmond City, Virginia, where 
Black students lost nearly 500 days per 100 Black students 
enrolled. The Black-White gap there of 446 days is 12 times 
larger than the Black-White gap in Virginia Beach. These 
districts have different discipline policies. The racial 
discipline gap is greatest in Grand Rapids, Michigan, but both 
Blacks and Whites are losing too many days from out of school 
suspensions.
    If I were elected to the Grand Rapids School Board I would 
call for a review of their discipline policies. And if I found 
that most of the lost instruction and racial disparities were 
due to suspensions for dress code violations or getting tough 
on tardy students or truancy, or some no excuses policy, I 
would insist on replacing those harsh punitive responses with 
educationally justified ones.
    Unfortunately, the Trump Administration recently eliminated 
the Federal Title VI guidance on school discipline. Its 
disparate impact section prompted school districts to review 
justification of discipline policies that produced the kind of 
impact we see in Grand Rapids, Richmond City, and Anson County, 
North Carolina, all where Blacks lost over 300 days of 
instruction more than Whites due to out of school suspensions.
    This next slide is from our California report, and it is 
about a particular policy of suspending students for minor 
behaviors, lumped together under the category of disruption or 
defiance. It shows how the share of days of lost instruction 
caused by that one policy from causing 49 percent of all lost 
instruction in 2011-12 to only 20 percent in 2015-16. In other 
words, as districts found better ways of responding to minor 
behaviors than simply kicking kids out of school, not only was 
there a decline in the total days lost, there was no major 
uptick in suspensions for more serious misbehaviors.
    The next slide shows what happened to the days of 
instruction per 100 for each racial group due to suspensions 
for all reasons during the same period. Many districts, like 
Los Angeles, ban suspensions for disruption or defiance for K-
12. And there was a statewide ban for grades K-3. Black 
students experienced the largest drop in days of lost 
instruction due to discipline, from 64 days to 39 days. And the 
Black-White gap narrowed from a difference of 47 to a 
difference of 29.
    The evidence suggests that the policy of suspension for 
minor offenses contributed to the large racial gap in 
California, and eliminating that policy has helped reduce the 
disparity.
    This final slide, I will conclude by summarizing, is from 
the research of Dr. Russell Rumberger, one of the Nation's 
leading experts on why students drop out of school. After 
controlling for the main reasons that students drop out, his 
analysis determined that getting suspended predicted a decrease 
in the graduation rate by as much as 15 percentage points. He 
then estimated the economic costs from the lowering of the 
graduation rate that was due to suspension and found that 
suspensions cost our Nation $35 billion just from 1 year's 
cohort. These economic losses hurt all members of our society, 
but undoubtedly harm communities of color more than others.
    I argue that it makes good economic sense to invest in 
alternatives designed to reduce suspensions and keep more kids 
in school. Keeping kids safe is of course of paramount 
importance, but safety includes protecting our children from 
injustice. Unfortunately, the Trump Administration has signaled 
that it will no longer protect children of color from the 
disparate harm that is caused by unjustified policies.
    Therefore, I encourage Congress to act by passing Chairman 
Scott's Equity and Inclusion Enforcement Act, which would 
restore a private right of action so parents and civil rights 
advocates could bring disparate impact claims to court.
    Thank you.
    [The statement of Mr. Losen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman SCOTT. Thank you.
    Mr. Pierre.

   TESTIMONY OF DION J. PIERRE, RESEARCH ASSOCIATE, NATIONAL 
                    ASSOCIATION OF SCHOLARS

    Mr. PIERRE. I grew up in New York City, where I attended 
public schools between 2000-2012, interrupted by brief periods 
in other cities as my parents moved around. The brief sojourns 
in schools outside New York City opened my eyes. Schools in 
America are by no means equal, but the sources of inequality 
differ from what most people think.
    I learned from schools in Binghamton, New York and Winston-
Salem, North Carolina that parents and teachers can work 
together to help students behave properly and succeed 
academically.
    Most of the time, however, I attended schools beset by 
disciplinary problems. When I acted out in schools in 
Binghamton and Winston-Salem the teachers called my parents and 
I settled down. Nothing like that happened in the other 
schools. But by grade nine I had my own ideas about what school 
was good for. I wanted to learn and learning was always more 
difficult when disruption ruled.
    In September 2008, I arrived with my stepfather at John 
Adams High School in South Ozone Park, Queens to complete my 
registration for fall classes. Several hours later I watched 
from a table at the perimeter of the cafeteria as members of 
the Crip Gang pounced a young man sporting the colors of the 
rival Blood Gang. I had just received my lunch.
    Incidents like these were common at John Adams where, 
according to the New York State Education Department, only 64 
percent of students graduate in 4 years, just 2 percent more 
graduate in 6 years. Violence, gang activity, and classroom 
disruptions were the John Adams experience. The high school was 
something like a poorly run prison where the inmates intimidate 
the guards. Every morning we walked through metal detectors, at 
the end of which stood a New York City public safety officer, 
wand in hand, waiting to scan us again. It was annoying, but 
plainly necessary.
    Classes could be disrupted at any moment by late arriving 
students who paid no price for tardiness. Students dipped into 
classes into which they weren't registered to escape our Vice 
Principal's infamous hall sweeps. Hall sweeps collected late 
students, quarantining them in a lecture room on the third 
floor to avoid more classroom disruptions. Class clowns heckled 
instructors incessantly and others laced their jeering with 
threats of physical harm and racial epithets. When the 
situation got seriously out of control, the teachers called 
public safety officers and school administrators, but their 
arrival escalated the situation, usually by giving the student 
occasion to put on a show for his friends. By the time the 
student was hauled off and the flipped desks set right, the 
bell signaling the end of class rang. So much for instruction.
    I recall these anecdotes every time I hear people decry 
Black and Latino students' alarmingly high suspension and 
expulsion rates. In 2015 New York City Mayor Bill de Blasio 
issued rules requiring school officials to receive permission 
from the New York City Education Department to suspend 
students. Recently, the California Senate passed a measure 
forbidding public schools from suspending students in grades 
four through eight who willfully defy school staff. The bill 
was supported by legislators, alarmed that although Black 
students account for 5 1/2 percent of California students, they 
receive 20 percent of all suspensions in the State. Similar 
measures trailed the Obama Administration's 2014 guidelines 
seeking to curb racial disparities in school disciplinary 
proceedings. Proponents of these measures argued that because 
Black students are disparately impacted by school suspension, 
our Nation's school systems are hotbeds of racial 
discrimination.
    But this disparate impact theory is a fantasy. Violence and 
lack of order in underserved schools deprives all students of 
their rightful educational opportunities. Catering to the 
disruptors by keeping them in classrooms or halls, cafeterias, 
or wherever they choose to hang out, is a terrible idea.
    The Obama era guidelines aren't social justice, it is 
state-mandated foolishness. Keeping teen predators in schools 
so that they can continue preying on vulnerable students 
doesn't bring educational opportunity to anyone, but that is 
what the campaign to undermine school discipline in minority 
communities has come to.
    Why do urban schools tend to have more disciplinary 
problems than other schools? I don't have all the answers, but 
I know that the problem feeds on itself. In many cases students 
are influenced by mainstream culture, which often encourages 
minority youth towards transgressive behavior, lets students 
feel they can get away with anything, and some will try to find 
out just how far they can go. And when nothing happens to them, 
other students will misbehave as well.
    These problems are aggravated, of course, in communities 
with high rates of family dysfunction and other social 
problems. The root problem here is not racism.
    But even in the most afflicted communities, schools can 
still be beacons of hope, the fertile fields of potential from 
which the leaders of tomorrow will sprout and grow into the 
next generation of great Americans. Turning them into 
sanctuaries for bullies, early career criminals, and gangs is 
unwise public policy and will stymie progress.
    [The statement of Mr. Pierre follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman SCOTT. Thank you.
    Mr. Carranza.

    TESTIMONY OF RICHARD A. CARRANZA, NEW YORK CITY SCHOOLS 
       CHANCELLOR, NEW YORK CITY DEPARTMENT OF EDUCATION

    Mr. CARRANZA. Good morning, Chairman Scott, Ranking Member 
Dr. Foxx, and all the Members of the Committee here today. On 
behalf of Mayor de Blasio and the New York City Department of 
Education, I am honored to be here today.
    Thank you for the opportunity to testify at this important 
hearing and thank you for your support for our 1.1 million New 
York City public school students.
    Now, I know, just as the Mayor knows, just as everyone in 
this chamber knows, that public education is an investment in 
the future. From my own experience as a student, a teacher, a 
principal, and now Chancellor of the largest school system in 
the Nation, I can tell you that a public school education can 
change lives. Unfortunately, this scourge of school segregation 
robs many students of color and those living in poverty of the 
high quality education they deserve.
    Sixty-five years after the decision, I humbly say to you 
schools systems nationwide have not fulfilled the mandate of 
the United States Supreme Court in Brown v. Board of Education. 
Decades of history have taught us that segregation is 
inherently unequal. For too long we have been afraid to 
confront this reality, but we can no longer allow such a system 
to persist just because the problem is hard to fix.
    As Chancellor it is my overarching goal to advance equity--
not yesterday, not maybe in the future, but advance equity now. 
So we are confronting this problem head on by increasing 
diversity in some of our most segregated school districts. 
After a community-driven process, we have approved diversity 
plans put forward in three school districts in New York, 
Districts 1 and 3 in Manhattan and District 15 in Brooklyn.
    In District 15, due in part to a long-standing academic 
screens for admissions, many middle schools have long served 
very low numbers of low income Black and Latino students. 
Others basically served only low income Black and Latino 
students. District 15's diversity planning process brought 
everyone to the table, community members, parents, and 
students, advocates, and school staff from across the District. 
And they had tough but necessary conversations, conversations 
grounded in data and occurring in different languages. The 
result was a grassroots driven comprehensive plan that 
eliminated all academic screens in favor of a lottery. District 
15 middle schools will now prioritize approximately half of 
their seats for students from low income families, English 
language learners, and students in temporary housing.
    These efforts to increased diversity in District 15 
inspired our $2 million grant program to support school 
districts to develop locally driven diversity plans in 
communities across New York City. This program is supported by 
Federal Title IV funding.
    Now, I wanted to turn to the well-known issue of our most 
selective schools in the City, the specialized high schools. 
New York State law mandates that admission be based solely on 
results from a single test. No other institution in the country 
uses such a process with one single test. What outcomes has 
this led to? This year, Black and Latino students received only 
10 percent of admission offers in a school system that is 
nearly 70 percent Black and Latino students. This is unfair, it 
is unacceptable. Unfortunately it is the status quo.
    As the Mayor has put forward a proposal to change New York 
State law to eliminate the single test and expand admissions 
criteria to include a proven combination of grades and state 
test scores. If we are to advance equity, now we must eliminate 
the single test for specialized high schools now.
    However, integration is not just about giving Black and 
Latino students access to predominantly White schools, it is 
much more complicated than that. It is also about priming our 
school communities for this change by creating classroom 
cultures that respect and celebrate diversity, it is about 
implementing our sweeping equity and excellence for all agenda 
based upon the premise that whether students attend a school 
with mostly White peers or mostly Black and Brown peers, they 
all deserve an excellent education, the opportunity to develop 
invaluable life skills and the social capital that helps to 
open doors.
    And meaningful integration is about ensuring that all 
125,000 people who work with our students in the New York City 
system address their implicit biases that may create different 
expectations for different students. We are delivering 
important anti-bias training to each and every one as a central 
part of our advancing equity now.
    Now, briefly, I would like to turn to some ways in which 
the Federal Government can support the work that is elaborated 
on further in my written testimony. Number one, reinstate 
Federal guidance to support diversity in schools. The prior 
guidance on racial diversity in K-12 schools provided that 
support by explaining how school systems can voluntarily 
consider race to achieve diversity and avoid social racial 
isolation in schools. The current Administration has rescinded 
that guidance and has failed to issue any alternative policies.
    Number two, reinstate Federal guidance to support equity in 
discipline. Prior school discipline guidance supported school 
systems by describing how those systems can administer student 
discipline without discriminating against students on the basis 
of race, color, or national origin.
    Number three, increase and protect Title IV resources. The 
Administration's proposed budget includes elimination of Title 
IV, an important resource, that as I noted, we are currently 
using to fund our $2 million diversity grant program.
    And, number four, pass Strength in Diversity Act. This Act 
authorizes $120 million to provide planning implementation 
grants to support voluntary local efforts to increase social 
economic diversity in our schools.
    The goal of New York City's diversity agenda is to build a 
future that is not bound by history, by demographics, or by 
income. We believe we can create a system that reflects the 
best of our diverse, inspiring, and innovative city. We must 
continue to engage in the additional hard work necessary to 
disrupt the status quo, to desegregate our schools, and advance 
equity now.
    We are grateful to this Committee's Focus on integration 
and the advancement of equity, and I thank you for your time, 
and would be happy to answer questions from the Committee.
    [The statement of Mr. Carranza follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman SCOTT. Thank you.
    We will begin with Member questions. I will first call on 
the gentlelady from California, Ms. Davis.
    Ms. DAVIS. Thank you very much, Mr. Chairman. And thank you 
to all of you for being here and for being really helpful to us 
today.
    I want to turn first to Dr. Darling-Hammond. And thank you 
for your in depth work and focus over the years. I wanted you 
to just answer for us, so what is the importance of resource 
equity in combating segregation?
    Ms. DARLING-HAMMOND. Well, the original theory of action in 
Brown v. Board of Education, the cases that were consolidated 
into it, was both one about resources and one about 
desegregation, because there has been historically very 
disparate resources allocated to schools were experiencing de 
jure segregation. And even today, there are disparities in 
funding that are associated with segregation. Segregation and 
poverty and inadequate resources typically go hand in hand.
    There was a recent study by the Education Trust which found 
that nationally districts serving the most students of color 
receive about $1,800 per pupil less than districts that serve 
the fewest students of color. In many states there is a much 
bigger divide. You will see that in, you know, Lower Marion, 
Pennsylvania will spend twice as much as Philadelphia, New 
Trier spends twice as much as Chicago, Scarsdale used to spend 
twice as much as New York City, and it is probably still close 
to that; considerable differential. One study from EdBuild 
found that predominantly non-White districts receive about $23 
billion less than predominantly White districts. So these two 
things go hand in hand and it is very hard to adjust the 
resource needs and also meet the resource needs in high poverty 
districts without also tackling desegregation.
    Ms. DAVIS. Mm-hmm. We see that some school districts, 
despite their best intentions really at trying to get at some 
of these issues, it is not sufficient. So what is it 
additionally--and I think you have all talked about some of the 
harmful policies as well as beneficial policies at the Federal 
level. How do we help the school districts who are trying to do 
this, good intentions, but not sufficient?
    And if I might, turn to the Chancellor in a minute to ask 
about San Francisco, because that is one example where I think 
again, good intentions, but not sufficient. How would you 
respond?
    Ms. DARLING-HAMMOND. Well, in my written testimony, I talk 
about several districts that have inter district desegregation 
plans and intra district desegregation plans that require 
investing in schools, so that you have equitable funding, so 
you can build high quality choices in every community. I was 
very sympathetic to Ms. White's testimony about the lack of 
such schools in some communities, but it takes an investment. 
You need transportation funds to allow kids to get to the 
schools that will meet their needs and choices, as is going on 
in Hartford and San Antonio and you need fair and open 
admissions policies. So there are a number of things that the 
guidance on diversity in the Obama Administration offered as 
strategies that actually have worked in a number of districts, 
but they do require, you know, investment, and they require 
opportunity to leverage the choice for equity. Because without 
that set of bumper guards, it will sometimes produce inequity 
and more segregation.
    Ms. DAVIS. Thank you.
    And turning to the Chancellor, if you could--obviously as 
one of the recent articles in the New York Times stated, the 
program in San Francisco did not live up to the expectations. 
Some would call it a failure perhaps. You may feel differently 
that there were some strengths. But so what is it with best 
intentions, not sufficient? What happened?
    Mr. CARRANZA. Well, as Professor Darling-Hammond has 
stated, you can't have choice if you don't really fund the 
choice. So if you don't have transportation, if you are not 
creating programs that are geographically distributed in the 
city--and this is a phenomenon that I saw not only as 
superintendent in San Francisco, but as superintendent in 
Houston, same thing. If you have choice without the appropriate 
undergirding of programmatic opportunities, of distributed 
opportunities across a city, and a mechanism for informing 
parents and students of what those choices are, you really 
don't have choice. And I think that was one of the issues that 
plagued us in San Francisco, was how do you create those kinds 
of programs with the appropriate funding streams in 
geographically distributed areas across the city.
    Ms. DAVIS. Thank you very much. And my time is up. I return 
my time. Thank you.
    Chairman SCOTT. Thank you.
    Dr. Foxx.
    Mrs. FOXX. Thank you, Mr. Chairman.
    Mr. Pierre, you reached out to us asking to testify today, 
is that correct?
    Mr. PIERRE. Yes, ma'am.
    Mrs. FOXX. Okay. Why was it so important for you to have 
the chance to share your perspective?
    Mr. PIERRE. I think it is important to talk about these 
issues honestly and in a way that actually takes minority 
communities seriously. I think the Obama era guidelines are an 
abdication rather than an assertive effort to cure the ills in 
minority communities.
    Mrs. FOXX. Thank you.
    Ms. White, what does the promise of Brown v. Board of 
Education mean to you and how do you think that decision helped 
your son reach his potential?
    Ms. WHITE. That decision helped my son reach his potential 
in that he now had choices. He had a choice to either go to the 
local school, local neighborhood school, and he had the option 
then to attend either a private school or a charter. So he had 
the ability to choose among three different types of learning 
environments.
    Mrs. FOXX. Thank you. Ms. White, you talked about this in 
your testimony, but I want to follow up on it. Your son 
attended a traditional public school, a public charter school, 
and a private school throughout his education. Why did you 
change schools and was it easy to do so?
    Ms. WHITE. I changed schools initially because of--I 
explained earlier that there was an altercation at the school 
and the school did not utilize the--in the inner city we know 
that some schools have issues with behavior. And so this was an 
obvious behavior problem that was not addressed, and so I felt 
that it was necessary then to move him. And we continually 
looked at the options and decided that we needed to move 
further. And we continued to evaluate it. It was not a one 
time, you know, he attends one school. We evaluated it 
continually.
    And, no, the transition was not easy, but I as a parent 
made it easier for my son, explaining the transition, and 
giving him any additional support he needed to do that.
    Mrs. FOXX. Thank you very much.
    Mr. Pierre, did you see other students at your high school 
become discouraged in the way that you did? What was the impact 
on those students?
    Mr. PIERRE. Oh, absolutely. At John Adams High School, if 
you cooperated with teachers and did your lessons, the students 
would make fun of you, they would say that you are acting 
White. And that of course puts tons of pressure on minority 
students who are just trying to get by. The idea that 
disruptive behavior and failing is somehow tied to Black 
identity is one of the most destructive ideas in our country 
today. President Obama probably never had any experience with 
that because he went to high school in Hawaii, I went to high 
school in New York City.
    Mrs. FOXX. Mr. Pierre, do you think having greater freedom 
to choose the right educational option would have benefitted 
you or changed the dynamics you observed?
    Mr. PIERRE. Hmm, well, I guess I ended up here, so I think 
that I had a family that was able to instill good values and 
work ethic in me. And I survived. But for other students, for 
whom languishing in a New York City public school was 
detrimental, I would absolutely support their right to seek out 
school districts where they will have a better education and a 
better learning environment. It is just cruel to keep well 
performing minority students in classes with disruptive 
students.
    Mrs. FOXX. Mr. Pierre, when you visited your old school in 
2016, did you have the chance to talk to any teachers or other 
staff?
    Mr. PIERRE. Yeah, absolutely. And they were demoralized. 
They can't do anything. When I was in high school we weren't 
allowed to have cell phones in class. Students were bringing 
their cell phones to staircases, reeked of marijuana, which 
would have never happened with the Vice Principal that was 
there when I was there, and I said well, what happened. They 
said well, we can't suspend anyone. Shortly after that visit I 
read a New York Post article about the John Adams High School 
Principal refusing to suspend a student who--a senior student 
who made a sex tape with a freshman, and the word around school 
was that he wanted to keep the numbers down.
    Mrs. FOXX. Thank you very much. I want to thank our 
witnesses again for being here today.
    And I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. COURTNEY. Thank you, Mr. Chairman. And thank you for 
taking the time to focus on Brown v. Board of Education in 
terms of again the period that we have experienced in terms of 
ups and downs.
    One place where I would argue there was some progress was 
referred to by Professor Brittain in his remarks when he read 
from the holding of Sheff v. O'Neill, a case that those of us 
from Connecticut are very familiar with. He was the lead 
counsel for the plaintiff in that case. It took almost 8 years 
to get from filing the lawsuit to the final judgment in 1996, 
which ruled again that segregation under the State constitution 
in fact was a violation of State law. And that triggered a 
whole other process in terms of trying to find the resources to 
implement a system of breaking down those barriers.
    Again, I just think that Professor Brittain's leadership 
and advocacy--again, persisting to go back to the courts, to 
force the State legislature to come up with the resources for a 
segregation plan, has resulted in some positive outcomes.
    Mr. Chairman, I have an article from The American Prospect, 
``Desegregated Differently'', which describes again the Sheff 
v. O'Neill case, which I would like to ask that to be admitted 
to the record.
    Chairman SCOTT. Without objection
    Mr. COURTNEY. And it states very clearly in the first 
paragraph that nearly half of the public school students in the 
City of Hartford now attend desegregated schools. Included in 
that sort of plan is a Sheff school, as it is called, in East 
Hartford, Connecticut, the IB Academy, which my daughter, 
Elizabeth, attended and graduated in 2013. Again, it was rated 
by the U.S. News & World Report as the fifth best high school 
in the State of Connecticut. Again, totally diverse student 
body where students from Hartford, Connecticut are transported 
every day, along with kids from other suburban areas. And 
again, it has shown that in fact diversity and quality are just 
not incompatible, but in fact work together to produce great 
outcomes for students.
    So, again, Professor Brittain, based on your experience in, 
you know, dealing with again the resource issue in the wake of 
the court's decision, I mean to some degree that is really the 
mission that we should really be focused on in terms of trying 
to get the benefits that you described in your testimony. Is 
that correct?
    Mr. BRITTAIN. That is correct.
    Mr. COURTNEY. And the Strength in Diversity Act, which my 
friend Congresswoman Fudge--would open the door to expanding 
those resources, as well as the magnet school grants, which the 
Chancellor referred to, which have really kind of not been out 
there for communities. That would help, don't you think, based 
on your experience, in terms of breaking down resistance to 
really enhancing these types of program?
    Mr. BRITTAIN. Absolutely, I agree with both the Chancellor 
and my colleague, Dr. Linda Darling-Hammond.
    Mr. COURTNEY. Because, you know, what we are seeing is that 
again you hit that about 50 percent mark in terms of kids 
attending desegregated schools, but it has somewhat stalled 
because of budget issues in Connecticut, and also some 
resistance in terms of local communities funding issues like 
transportation. If the Federal Government were to step in and 
really provide a new infusion of resources, I mean that would 
really turbo charge and jump start, you know, these models that 
we know are actually working, isn't that correct?
    Mr. BRITTAIN. That is correct.
    Mr. COURTNEY. And, Chancellor, I don't know if you want to 
just sort of chime in, but you know that would get to the heart 
of some of the other criticisms that we have heard here. I mean 
I don't want to speak ill of the New York City school system, 
but frankly it is highly segregated. And if we had programs 
which, again, we are able to diversify student bodies, I think 
frankly you would see improvement all across the board.
    And I was wondering if you could comment on that.
    Mr. CARRANZA. Yes, sir. So it would be a game changer. And, 
again, resources--as public school systems we don't have the 
ability to charge more for our product. We don't sell products, 
we educate souls. So we are dependent upon the funding that we 
get to be good public stewards of that funding.
    So additional resources gives us the opportunity to create 
programs, to distribute those programs through an equity lens 
in communities that have historically been underfunded. It also 
allows us to provide mechanisms for parents in the traditional 
public schools to access those programs and students to access 
those programs.
    As you mentioned, a culinary arts programs, we know that 
students have lots of varying interests. So as we work to 
modernize what that curriculum looks like and give students a 
portfolio of options, the funding becomes central to that.
    Mr. COURTNEY. Thank you. And, again, that really should be 
our focus in terms of next steps.
    Again, I just want to publicly thank Professor Britain for 
his amazing work in the State of Connecticut. My family got a 
firsthand view of the benefits and it was just--you are a giant 
in the history of our State.
    Mr. BRITTAIN. Thank you, sir. You are much too kind.
    Chairman SCOTT. The gentleman yields back.
    Dr. Roe.
    Mr. ROE. Thank you, Mr. Chairman. And I thank all the panel 
for being here. It is an extremely important topic.
    And I may be the only person sitting up here that graduated 
from high school in the segregated school system in the rural 
South. And the first African American student I went to school 
with was college and then medical school, and then on. And I 
certainly know that was wrong and certainly had a very 
detrimental effect.
    I want a couple of questions--I would like a couple of 
questions answered.
    Ms. White, I live a block from a charter school here in 
D.C. I go by it every single day. We just had a huge debate in 
Tennessee on charter schools, should tuitions be used--and you 
made a very eloquent case for that. And I don't see how you can 
ask a parent in a failing school to keep their--that is the 
only chance that child has. And we know if you go through one 
or two grades in a failing school, your child gets way behind.
    And so I would like for you to answer a couple of 
questions. One, what would you say to someone who suggests that 
you should only have a public school choice, that the charter 
schools or private schools reduce resources to public ones? 
That is a common denominator that we hear.
    Ms. WHITE. What I found was that is contrary to the truth 
in that competition allows schools to work better together. Not 
just to work better together, but competition allows them to 
work to do the best work possible that they can. When you are 
in any competitive arena, you do better when you have 
competition. And so we have found that instead of it taking 
resources away from the public school, it increases the public 
schools' ability to do better work as they are competing with 
the charter and then private schools.
    Mr. ROE. Well, one of the things I wanted to--thank you. 
And one of the things I want to do is the basically the 
discipline part. Discipline was not a problem in my public high 
school because my principal was a Marine, a World War II 
Marine, so it was not a problem obeying him, let me tell you. 
Mr. Thompson--I will never forget him as long as I live.
    And, to Mr. Pierre, I want you to talk and I want Mr. Losen 
or the Chancellor to--and, Chancellor, you have a huge chore in 
front of you, over a million students, but how do you answer 
what he said? I know in my community at home we have an 
alternative school. You don't get lucky and get kicked out and 
don't go to school. You then go to alternative school where you 
can continue your education. You don't get to stop, but you get 
the disruptive student out of the class.
    What do you say to this good student sitting here when his 
education is disrupted by disruptive students? Either one of 
you.
    Mr. CARRANZA. So it is the job of every teacher, every 
principal, every Chancellor to ensure that there are 
environments in schools that are supportive, that are 
academically rigorous. That should be happening in every 
school.
    What has been described here is not what anybody wants, 
however, it has been my experience in almost 30 years as an 
educator, that when you build capacity for teachers, for 
administrators to be able to work with students in a different 
way, to be able to apply different strategies to work with 
students, you get better results. And, you know, a surgeon 
doesn't just go for the scalpel, there are different things 
that you diagnose and different treatments that you apply based 
on what the circumstances are. The end result is you want the 
patient to be well.
    So what we are doing in New York City is building capacity 
for teachers and principals to use different types of 
strategies to meet the needs of students. In some cases we have 
to connect students with resources and services that have to do 
with some of the personal challenges that they are facing. That 
makes a big difference.
    Mr. ROE. Let me interrupt you.
    Mr. CARRANZA. Sure.
    Mr. ROE. Because my time is going to expire. I want Mr. 
Pierre to respond to that.
    Mr. PIERRE. I mean we would hear this kind of stuff from 
the many Chancellors I had when I was in high school. There was 
a brief period of lots of overturn. You know, a lot of it just 
sounds academic and, you know, tons of abstract nouns thrown 
together, equities, strategies. We never saw any strategies, we 
saw disruptive students, we saw teachers encouraging us to lie 
on surveys when state or city inspectors came. It was just a 
disaster, the idea that any Chancellor in New York City has 
made things better in minority serving schools the past 5 
years, 10 years, 20 years, is just not speaking to the reality 
that is on the ground.
    Mr. ROE. Do you recommend that--and he has a tough job--but 
do you recommend that maybe he do the sort of the boss that is 
hiding out that day and they don't know who he is and he goes 
and talks to the students there?
    Mr. PIERRE. Absolutely. If the administrators don't know 
the State is coming, the students will be really honest I 
think. We were told to lie.
    Mr. ROE. Mr. Chairman, thank you, sir. I yield back.
    Mr. LOSEN. Yes, if I could also respond. I think it is 
important on page 12 of our written testimony to note that in 
Los Angeles, where they eliminated the policy of suspending 
kids for this catch all category of disruption or willful 
defiance, there was a dramatic, dramatic decrease in the loss 
of instruction. And during that same period, Los Angeles had 
the largest increase in improvement in graduation rates that it 
has ever experienced. And at the same time, in a two year 
period, where they were tracking test scores, the achievement 
went up not down. And other studies have found the same thing. 
But it makes sense, if you reduce the amount of the loss of 
instruction for these kind of minor offenses--I am not talking 
about kids committing serious crimes or anything like that, 
there was just massive numbers of kids losing instructional 
time because of these minor offenses due to these sort of 
policies that kick kids out right and left.
    So I think it is really important to keep that in 
perspective.
    Thank you.
    Chairman SCOTT. Thank you.
    The young lady from Ohio, Ms. Fudge.
    Ms. FUDGE. Thank you very much, Mr. Chairman. And thank you 
all so much for being here.
    Just for somebody watching from not in this room, so we 
won't be confused, we are not talking about a choice bill here 
today. Brown v. Board is a civil rights bill that speaks to 
equity, equality, and desegregation. It has absolutely nothing 
to do with choice. I just wanted to make that clear up front.
    But I do believe that 65 years after Brown, that a quality 
education, one that is equitable, is still the civil rights 
issue of our time, as only those who are wealthy are guaranteed 
to have a good education. And we also know that it is obvious 
that racism is not just going to die here, so we have to 
continue to be sure that we enforce things like Brown v. Board.
    And I am really impressed that a Ranking Member talks about 
the Secretary, who she believed believes in the letter and the 
spirit of the law, but I promise you it was not the law that 
had her dismiss 1,200 civil rights actions that she didn't even 
read. And it really wasn't the law that instructed her to start 
to dismantle the division of civil rights within her 
Department. So I don't know what law she is following. And it 
doesn't sound like she cares very much either.
    Let me just ask a question of Mr. Carranza. Mr. 
Superintendent, tell me how funneling of public dollars to 
private and religious schools impacts your ability to serve 
your students.
    Mr. CARRANZA. It siphons the lifeblood of programming, it 
siphons the opportunities. We know that students that have 
opportunities for enrichment. For example--one of many 
examples--students who get to go to the opera, they get to go 
to a museum, they get to go on a trip and experience new 
things, we know that students in economically depressed 
communities don't have those kinds of opportunities. We use 
every penny of our funding to keep the lights on and to keep 
the water running. So additional resources that we could have 
that then get siphoned elsewhere detract from the ability to 
provide those kinds of opportunities, which many people would 
say is the definition of a well-rounded education.
    So it is critically important to us.
    Ms. FUDGE. Thank you.
    Dr. Darling-Hammond, you participated in a funding formula 
in your State, am I right? Can you just tell me how that 
formula really just counters the disparate impact of 
resegregation in our schools today?
    Ms. DARLING-HAMMOND. Well, we have just redesigned the 
funding formula in California so that it actually is associated 
with attending to pupil needs. So districts get an equal amount 
of money to start and then they get more money for each child 
in poverty who is an English learner or who is in foster care 
or homeless. And those concentrations of funding are giving the 
districts that serve students with the greatest needs the 
opportunity to provide the stronger programming, which 
ultimately will also support desegregation and integration in 
some of the cities where you have got a population that will 
stay in the schools when they improve. So that is already 
beginning to happen.
    Ms. FUDGE. So it has nothing to do with property taxes?
    Ms. DARLING-HAMMOND. Well, the money now goes to the--there 
is property tax money, there is other money, it all goes to--
    Ms. FUDGE. But there is money on top of that, right?
    Ms. DARLING-HAMMOND. Yeah. And the State adds to that--
    Ms. FUDGE. So the people who live in poor communities won't 
always be poor in their education?
    Ms. DARLING-HAMMOND. Exactly. So now we are redistributing 
that money in a way that is attendant to pupil's needs. And 
that is a critical part of the process.
    We have had a lot of conversation here about what kinds of 
investments are needed. One is to get states to be equitable in 
their funding. And there have been efforts to encourage states 
in that regard in past administrations.
    Another is to then make those investments in things like 
magnet schools. Right now we are spending $107 million and $440 
million on charters. We should try to spend as much on schools 
that are high quality magnets as we do on schools that are--
    Ms. FUDGE. Thank you. And we all know that charters are 
not--have yet to be proven better than any other school.
    Professor Brittain, if you would like to make some comment. 
I know you were trying to get in before, and since you are a 
law professor and I am a lawyer, I yield the balance of my time 
to you, sir.
    Mr. BRITTAIN. Thank you very much, Congresswoman Fudge.
    I just wanted to say that the question we face is where 
will we be 50 years from now in terms of looking at Brown. We 
have come 65 years so far. Ups and downs, peaks and valleys, 
and we have about 35 more years to go for the 100th anniversary 
of Brown. Unless we come together to look at the question of 
race, particularly in education, but in housing, in criminal 
justice, in all fields, we will never reach the equality that 
was set forth in Brown.
    Ms. FUDGE. Thank you so much.
    I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you.
    The gentleman from Michigan, Mr. Walberg.
    Mr. WALBERG. Thank you, Mr. Chairman. And thanks to the 
panel for being here.
    So I thank you for being part of the panel, too. It is 
great to have one who is identified--I know others are--but 
identified specifically as a parent. I think in Brown v. Board 
of Education, in seeing that worked out to the best of its 
capabilities, I think it mandates that parents are returned to 
their proper responsibility with their children--their 
children--their children. And parents who understand that and 
truly care--which I think are the majority of parents--not all, 
but the majority--are integral and most important in making 
sure that the Brown v. and other attempts at making sure that 
we have quality education for all is there.
    So thank you.
    Ms. White, I imagine you and your family have become 
resources for other families facing similar challenges for 
educating their own kids. What advice do you give to other 
families looking for educational options for their children?
    Ms. WHITE. I always share with parents that life is a 
situation where you are going to either pay now or pay later. 
And so it is a lot less--it is a lot easier when we pay now and 
taking the time out to be very intentional about checking into 
what the options are for our children's education. And so I ask 
them to invest as much time, and I help them invest as much 
time as possible to check into all of the possibilities 
available to them.
    Mr. WALBERG. And you checked into, for your children, as I 
understand it, traditional public schools, public charter 
schools, as well as private schools?
    Ms. WHITE. Correct.
    Mr. WALBERG. Did you find common traits in the schools that 
you felt were effective in educating your children? And, 
second, were those traits exclusive to any single type of 
school?
    Ms. WHITE. One of the major traits that I saw was in the 
area of parental engagement. So where there was parental 
engagement in the school, the students performed better. And 
that was across the line, whether they were in a public school, 
private school, or a charter school. And the amount of 
dollars--I don't know all of the data in that regard, but I 
know that if you give parents enough information and you get 
them engaged and understanding what their responsibility is, 
the students will do better.
    Mr. WALBERG. Was this engagement by parents at a specific 
economic strata?
    Ms. WHITE. No.
    Mr. WALBERG. Specific communities?
    Ms. WHITE. No. There had to be intentional parental 
engagement. So where the parental engagement was found, whether 
it was a higher socioeconomic group or lower, students 
performed better.
    Mr. WALBERG. Were the schools helpful in bringing about 
that engagement?
    Ms. WHITE. I have worked with a public school in the 
District and five in Prince George's County public schools 
where there was substantial parental engagement and they did 
excellently.
    Mr. WALBERG. Okay. You talked in your testimony about 
needing to be empowered as a parent. What is the effect on 
families when parents feel disempowered with respect to their 
children's education?
    Ms. WHITE. The effect on the families?
    Mr. WALBERG. The effect specifically on families when 
parents feel disempowered.
    Ms. WHITE. When parents feel disempowered, they are just 
not motivated to make the changes that need to be made. So we 
have to empower them and make them understand that they have a 
right and a responsibility to make decisions for their 
children.
    Mr. WALBERG. Mr. Pierre, could you comment on that as well, 
in your studies and involvement about parents being empowered 
or disempowered, what the impact is?
    Mr. PIERRE. I agree, but I caution against putting so much 
emphasis on, you know, which programs are available for 
parents. Much of this starts when people have children for the 
first time. At my high school most students who were South 
Asian or Latino had two parent households, married, sort of 
decided to have kids, were invested in them. This is often not 
the case in Black American communities and it creates an 
environment where a lot of children don't have responsible 
parents around them.
    And I am sure a lot of people if they knew that school 
choice was available would jump on it, but many people don't. 
They have kids too young, when they are 17 or 18, and they 
aren't aware of these things and life just goes on.
    Mr. WALBERG. Thank you.
    I yield back.
    Chairman SCOTT. Thank you.
    The gentleman from the Northern Mariana Islands, Mr. 
Sablan.
    Mr. SABLAN. Thank you very much, Mr. Chairman, for holding 
today's hearing. And I welcome to all the panelists. Thank you 
for joining us.
    Let me start, Mr. Losen, with you. Mr. Losen, I got that 
right? Thank you.
    So on December 21, 2018, Secretary DeVos rescinded the 
school discipline guidance created by the Obama Administration 
to ensure that students of color aren't disciplined more 
harshly than their peers. Now, according to the Data Quality 
Campaign, only 26 states are collecting data on school 
discipline in their State plans.
    Can you explain the effects of rescinding the guidance and 
the importance of school districts having support from the 
Federal Government to reform discipline policies to reduce 
disparities while keeping schools safe? Something that Mr. 
Pierre would understand.
    Mr. LOSEN. Yes. I think there are a number of--first of all 
when Secretary DeVos and the Trump Administration withdrew the 
guidance, it sent a signal to all the districts across the 
Nation that they no longer had to concern themselves when they 
were suspending kids right and left and even if it had profound 
disparate impact on one group or another. And I have pointed 
out that this is good, common sense policy because of the 
impact on graduation rates. Because of the impact on loss 
instruction.
    In general, moreover, her justification I want to point out 
cited a study that has been discredited and was discredited at 
the time. So there was a study that claimed that Black students 
were not discriminated against when you compared Black and 
White students who were similarly situated.
    In fact, another very conservative researcher with the same 
data set totally debunked that study and found that in fact 
Black students compared to similarly situated White students 
were 60 percent more likely to be suspended.
    So it just boggles the mind that they would rely on such 
discredited research when there is study after study after 
study that shows that Black students are treated differently. 
So they are punished more harshly.
    Mr. SABLAN. Okay. Thank you for and on two occasions that 
we had the Secretary here, it was just impossible, worse than 
pulling molar teeth than getting an answer from her. Chancellor 
Carranza, the student population of New York City public 
schools is majority minority like my district in the Northern 
Marianas.
    So could you speak to why diversifying the teaching 
profession is critical to the success of students of color and 
what more should we at the Federal level do to better recruit 
and retain highly qualified minority teachers?
    Mr. CARRANZA. So it's important that students see their 
education and their educational environment reflect who they 
are; not only in the curriculum and what they study, and how 
they study, and what they celebrate, but also in the people 
that are in front of them. And for many students, particularly 
students of color, and I'm a student of color myself. I'm an 
English language learner. It was important for me to see role 
models that were my teachers, that were my principals, that 
were a superintendent. So that becomes very, very important on 
that perspective.
    But it's also important in that students that have teachers 
of color, especially teachers that come from their background--
    Mr. SABLAN. Yes.
    Mr. CARRANZA.--there's a cultural competence that comes 
with that. When you walk into a classroom and you're an English 
language learner, a Latino student and the teacher says 
(speaking Spanish) hey, have a seat or I'm going to call your 
grandma or (speaking Spanish), there is a certain cultural 
competence that connects that student with their culture.
    Mr. SABLAN. I got a lot of that in school. Thank you. And 
Dr. Linda Darling-Hammond, I know you were pointing at the 
Chairman probably trying to add on to Mr. Losen's but in your 
testimony and report, the Federal role on school integration 
rounds promise and present challenges.
    You discussed the importance of the Federal role in 
promoting school diversity and access to opportunity. Again, in 
July 2018, Secretary DeVos rescinded the voluntary diversity 
guidance to help school districts improve diversity in K-12.
    What effect has the rescinding had on school districts 
seeking to improve diversity and what message does this send 
from the Federal Government? You have 25 seconds.
    Ms. DARLING-HAMMOND. Well, it sends the message that the 
Federal Government is not forward looking about helping 
districts, you know, create more diversity and it also raises 
confusion.
    In the wake of the Parents Involved case about what are the 
legitimate ways to support diversity and the ways that 
Chancellor Carranza is doing in New York City. There are 
guidance about specific strategies that districts have taken up 
that have been successful that is now not easily accessible to 
districts across the country.
    Mr. SABLAN. Yes. I see my time is up. Thank you, Mr. 
Chairman. I yield back.
    Chairman SCOTT. Thank you. Gentleman from Georgia, Mr. 
Allen.
    Mr. ALLEN. Thank you, Mr. Chairman, and I thank the panel 
for your input today on this critical subject in our country as 
the professor said. The--we have been at this a long time and 
we need to figure this out.
    Because just a couple things that I would remind my 
colleagues and the panel is that the U.S. currently spends the 
most on education of any country in the world. It's about 
$160,000 to educate students publically and 1 in 5 of our 
graduates is functionally illiterate.
    We are also although we spend the most in education, we are 
currently ranked 34th in science and I believe--no, 34th in 
math and 24th in science out of 72 developed nations. So 
obviously the--whatever model we are using is not working. Our 
students are challenged.
    I know that to get in college today it is very, very 
difficult, certain colleges in my district. But at the same 
time, we have some examples of some schools in my district that 
are making tremendous progress. We have a school system, inner 
city school system in the largest city in my district that has 
the number one high school in the country. Davidson Fine Arts 
is the magnet school.
    We also have in that county, a school that is supported by 
a Presbyterian Church and this school is for those students who 
are basically told they're losers in the public education 
system. And these parents have no other place to turn. And they 
have to pay a little something, but it is largely supported by 
the business community and others. It is a faith-based school, 
and it is amazing the results that they're getting. I mean, 
these kids are stars. In fact, they're pretty much offered full 
rides to any private school they want to go to when they get 
out of that school.
    And then I have an example of an inner city school in 
Dublin, Georgia where they, I mean, they finally just took the 
three schools and they made them theme schools. One is an arts, 
one is a STEM and the other one is a leadership. Parents got up 
at five o'clock in the morning to start signing up their 
children at eight o'clock in the morning for which school they 
were going to go to. We have a 95 percent graduation rate in 
that city school system right now.
    So, I'm saying that we are getting the job done locally, 
but somehow the Federal Government is messing all this up. It 
is really, I mean, this one size fits all--like you said, LA, 
there's some good things happening out there. Meaning that LA, 
New York, obviously very, very different. And so that's where 
we are missing it on the Federal level. In other words, the 
Federal Government says you should--you have to do this. They 
throw a lot of money at it, it doesn't work for each school 
district.
    Mr. Pierre, the thing that I, that occurred to me when you 
were speaking, and we have it at home is the gang problem. What 
in your mind is causing these young people to migrate to these 
gangs and creating like I said disruptions in not only 
educational systems, but in society as a whole?
    Mr. PIERRE. Well, it's interesting. This is something a lot 
of rappers talk about as they get older. The absence of fathers 
in the Black community leads a lot of young men to turn to 
other male figures in the community who seem to have authority. 
And gangs can be a source of protection, friendship, 
fraternity, so that happens a lot.
    Mr. ALLEN. Yes. Well, we know the family has been under 
attack in this country for a long time. I know my family was 
largely responsible for my success as far as education goes.
    Mr. Pierre, I mean, Ms. White, thank you for being here 
today and one of the criticisms we hear about school choice is 
the--and the public charter schools or private schools lack of 
accountability. But it seems to me that a system where you have 
real options the accountability rests with parents. And what 
reaction do you have when you hear arguments that parents can't 
be trusted to make the right decision for their children?
    Ms. WHITE. I slightly laugh like I just did because we are 
all of--many of us in this room are parents and we are 
intelligent and we want the best for our children and families. 
So what parents are you saying can' t be trusted? That's the 
question.
    Mr. ALLEN. Yes, exactly. Mr. Pierre, in your testimony you 
said you--oops, I am out of time. I'm sorry. Okay. I yield 
back.
    Chairman SCOTT. Thank you. Thank you. Gentleman's time has 
expired. Gentlelady from Florida, Ms. Wilson.
    Ms. WILSON. Thank you, Mr. Chair and Ranking Member Foxx 
for holding this hearing. The importance of today's hearing 
cannot be overstated. There has not been one single education 
Committee hearing focused on the issue of school denigration in 
30 years since 1989 so welcome to this hearing. The landmark 
Brown v. Board decision led to gains for African American 
students in the academic achievement gap by more than half in 
two decades of public school integration.
    During the time of integration, I was the principal in 
Miami Dade County at a school called Skyway Elementary. It was 
known as the Little United Nations. It was one third White and 
one third Hispanic and one third African American.
    It was so successful both academically and socially that 
former President Bush sent Education Secretary Lamar Alexander 
to the school to award the school the American 2000 award for 
elementary schools. He visited to witness the spectacular 
results firsthand.
    My students flourished and learned so much from each other 
which benefitted the entire community. The school is now named 
Dr. Frederica S. Wilson Elementary School. Unfortunately, many 
parents failed to understand that attending public schools with 
diverse enrollment greatly broadens the horizons of all 
students irrespective of race. Yet since the 1990's, the number 
of segregated schools has more than tripled reaching levels not 
seen since the Jim Crow Era.
    One of the chief factors in the movement toward 
resegregation is the increased use of private school vouchers. 
The concept of school vouchers arose in the 1950's as a way for 
White families to resegregate schools and avoid sending their 
children to racially integrated schools while still receiving 
tax payer funding.
    The first and perhaps most famous example of voucher usage 
was a tuition grant program in Prince Edward County Virginia in 
the 50's when this rural community chose to provide White 
students with vouchers rather that comply with civil rights 
laws.
    In 1999, my home State of Florida established the Florida 
Opportunity Scholarship Program. It is no coincidence that 
since then, that the same year in 1999 Governor Bush also ended 
affirmative action in education admissions. Higher education 
admissions.
    The expansion of vouchers in Florida and other locations 
across the Nation further increases socioeconomic and racial 
segregation. It is evident that the current Administrations 
complete disregard for civil rights and this glaring education 
budget which contains 5 billion per year in funding for school 
choice programs is another giant step toward resegregating 
America's schools. And I'm certain that Congress will step in 
again and deny appropriating this funding.
    My first question goes to Ms. Darling-Hammond. Ms. Darling-
Hammond, how do you think the proliferation of school choice 
throughout the Nation has affected diversity in our public 
schools?
    Ms. DARLING-HAMMOND. Well, there are a variety of kinds of 
school choice but in the charter element, charters are more 
segregated than other public schools both predominately Black 
and Latino charters in some places but also White charters 
which are being used in the way that segregation academies were 
once used in some states. So we see that increasing 
segregation.
    That may also be the case with the tuition vouchers and so 
on. I don't think that has been studied as well as the charter 
experience.
    So choice also exists however within traditional district 
run public schools and is typically managed to increase 
integration in those cases as in the Hartford case, as in the 
work that's going on in San Antonio and elsewhere.
    So for choice to--within the public school system to end up 
creating an opportunity for integration it has to be managed 
and the investments have to be available everywhere. 
Congresswoman Fudge made the important comment which you are 
reinforcing that equality is not about choice, it's a 
requirement for every school. Every school in every 
neighborhood has to be worth choosing and that's about 
investment in the quality of the education.
    And then given our segregated housing patterns, both we 
have to address those. There's the delay in the regulations on 
the affirmatively addressing fair housing rule as well to worry 
about but we need them, the transportation and other mechanisms 
that allow kids to get to the schools that allow them to have 
the experience that you had.
    If I might, could I also address the comment about the 
discipline guidance that was made earlier? The, you know, as I 
was listening to Mr. Pierre's testimony and that of Ms. White, 
it occurred to me that it really demonstrates how important it 
is actually to restore the discipline guidance which offered 
resources for evidence-based practices to replace suspensions.
    You can still suspend students under that guidance as is 
needed but what was valuable about it was that it gave schools 
a whole variety of ways through restorative practices, through 
social emotional learning which have been supported as making 
schools safer in many, many studies in reducing the bullying 
that Ms. White's child experienced and the kind of disorder 
that Mr. Pierre experienced.
    And we have evidence about that. There are of course other 
schools in New York City, one of which I just did a study on in 
Bronx, in the Bronx, Bronx Dale high school which had all of 
the characteristics that Mr. Pierre described of being, you 
know, very unmanaged at a moment in time but that wasn't 
because of the discipline era guidance.
    They in fact put in place the restorative practices, the 
social emotional learning, the wrap around services that the 
Obama era guidance suggested and became a much safer school and 
now a higher achieving school. We see this nationwide as that 
guidance was in effect.
    All across the country, the Federal data show that the 
percentage of public schools recording one or more incidents of 
violence, theft or crimes was lower in 2015, '16, the most 
recent year, than ever before. And we have seen it in 
California where we have had a very assertive approach to 
reducing unnecessary suspensions and replacing them with 
guidance around social emotional learning, anti-bullying 
practices, restorative practices and we are now a much safer 
State.
    We used to be way above the national average in weapons, 
fighting, bullying, and now we are way below the national 
average as we have replaced a tool that was not very successful 
with tools that are much more successful.
    When kids are suspended, they often become more badly 
behaved when they return because they have gotten behind in 
their academics, they're resentful, they're out of sync and 
then you get more disruption in the school.
    So I just want to make it clear that the evidence is very 
strong that you can address these needs in a way that is safer 
for kids.
    Ms. WILSON. Thank you so much.
    Chairman SCOTT. Thank you. Gentleman from Pennsylvania, Mr. 
Smucker.
    Mr. SMUCKER. Thank you, Mr. Chairman. I have been listening 
carefully to the testimony. I find interesting the discussion 
in regards to integration talking about that alongside school 
choice options.
    I first want to talk about school funding. Dr. Darling-
Hammond, you have mentioned being from Pennsylvania. You 
specifically mentioned a situation that I have talked about in 
Pennsylvania regards to how we fund our schools and that is 
Lower Marion which is a wealthy suburban school. They're 
spending about $28,000 per student as compared to the school 
district of Philadelphia spending about 14,000 so you are 
absolutely correct.
    It's about a two to one ratio or at least it was a few 
years ago when I was Chair of the education Committee in 
Pennsylvania State Senate. We did a lot of work because that is 
inequitable and every child should have the opportunity for a 
world class education regardless of the zip code that they 
happen to have been born in or reside in.
    We spent a lot of time with the basic education funding 
commission looking at the factors of need that create the need 
for additional funding, not less and we ended up with a new 
formula distributing the State portion of the dollars based on 
needs such as poverty, such as the number of English language 
learners and so on and added factors to our funding that 
directed more money to those schools rather than less. And 
there are some, they are traditionally sometimes are urban 
schools that have the highest need.
    We have applied that funding to all new dollars going into 
the system so it's a change that will take place over a long 
period of time but every year in Pennsylvania right now, we are 
seeing more equitable funding as a result of a new formula 
that's put in place. There are folks including myself who would 
like to see that happen faster but it is very difficult to take 
funding from one school to another.
    And another big problem we have in Pennsylvania is there is 
a heavy reliance on local tax dollars and so you have the 
ability with the Lower Marion school district, you have that 
tax base and you don't as much in Philadelphia. That, you know, 
can generate those local dollars that is needed so it is one of 
the problems that we are addressing.
    We have an actual formula or a criteria within the formula 
that allows for that and helps it be more equitable. So I agree 
with that. We should ensure that the resources--resources is a 
big portion of this issue. We also know that segregation helps 
to improve outcomes.
    So policies in place that not only provide for the right 
resources are important but the policies that ensure that 
segregation or the--yes, the segregation is occurring is also 
important.
    Now, here is where I differ from some of the discussion 
that is going on. All of that exists and is not affected by 
honest discussions around school choice. And, Ms. White, I have 
talked to so many parents like yourself who felt trapped in a 
school, much as we are trying to improve and ensure that our 
public school system is working effectively for every student, 
sometimes additional options, additional choices in that system 
can improve everything and I understand there is a funding 
component of this that can be talked about but I think it is 
important that we have choices available for parents and for 
students who today cannot access a great education.
    You know, we have schools, charter schools in Philadelphia 
area where there are thousands of parents waiting for an 
opportunity for their student. And I have spoken to some of 
those parents who were just overjoyed when they came out on the 
right side of that lottery and had an opportunity for their 
kid. So the two are not principles that need to compete with 
one another and in fact, when we are talking to parents, its, 
they don't really care about the political debate around school 
choice.
    And speaking of, maybe I'll do it in the form of a 
question. In speaking to other parents who made similar 
decisions in regards to the decisions that you did around your 
son's schooling, I mean, do you think any of them do care about 
the political debates surrounding school choice or did they 
just want to have options to make the best decision for their 
kids?
    Ms. WHITE. Parents just want to have the options available. 
But they also recognize that if they don't advocate for their 
children, then their choice will be nil. So they need to 
advocate and they also are looking that they might have 
grandchildren coming up who they want to have better educations 
so they need to advocate on another level and it will often 
mean that we have to get involved politically.
    Mr. SMUCKER. Thank you. I see my time has run out.
    Chairman SCOTT. Thank you. The gentlelady from Oregon, Ms. 
Bonamici.
    Ms. BONAMICI. Thank you. We know about the Federal role in 
education and we know that's equity and on this 65th 
anniversary of the historic Brown v. Board of Education 
Decision we have to acknowledge that we have not as a country 
fulfilled the promise of this landmark case.
    We saw of course progress in the 70's and 80's through 
strong Federal support to integrate schools, but today we are 
seeing the resegregation of schools, a rise in racially and 
socioeconomically isolated schools. This is all in that 2016 
GAO report, thank you now Chairman Scott, for requesting that. 
Now the Obama Administration was taking steps to address school 
segregation and forced civil rights protections, but 
unfortunately the Trump Administration is showing hostility 
towards those efforts seeking to remove the use of disparate 
impact regulations. They have rolled back critical guidance 
that's protected student's civil rights.
    I'm extremely concerned about the proposal for what they're 
calling education freedom scholarships which are essentially 
vouchers that would exacerbate inequality and drain important 
public resources. We must reaffirm our commitment to Brown by 
holding the administration accountable and enforcing the civil 
rights laws.
    I wanted, Dr. Darling-Hammond, to follow up on 
Representative to Davis's question. A recent report by Ed Build 
found that there is a $23 billion racial funding gap between 
school districts serving students of color and school districts 
serving predominantly White students. That's a pretty serious 
gap and we know that funding is one piece of the challenge 
here. And my colleague from Pennsylvania was talking about 
changes at the State level.
    What are the best ways to address that funding gap and how 
would addressing it begin to solve the goals of inequality and 
I thank you.
    Ms. DARLING-HAMMOND. First of all, I want to say how 
pleased I was to hear Congressman Smucker talk about what is 
going on in Pennsylvania. I did my dissertation in 1978 on 
school finance in Pennsylvania so we have been waiting a long 
time and I'm glad that's underway.
    I think that only about a dozen states in the country right 
now are organizing their financing of schools so that there's 
an equal playing field and some consideration of a little bit 
more for kids living in higher need situations.
    The other states are all--have not yet redesigned their 
school finance systems to allow for that. It strikes me that in 
the ESSA and in the ESEA over the years, we now ask states to 
demonstrate how they're going to make progress in academic 
achievement and outcomes for students across districts in 
schools. I think we ought to ask them as well as they receive 
Federal funding to make progress in equal educational 
opportunity also.
    Ms. BONAMICI. That's great. And I do want to get in a 
couple more questions. I appreciate that. Chancellor Carranza, 
you stated in your district that you leverage Federal Title IV 
funding under Every Student Succeeds Act. For diversity grant 
program, thank you for bringing that up, Dr. Darling-Hammond.
    And when Secretary DeVos recently testified before this 
Committee I expressed serious concern about the proposed 
elimination of Title IV grant funding. Fortunately just 
yesterday, the House Appropriations Committee announced it's 
included $1.3 billion for this program in this proposed bill 
which I will fight to pass into law.
    Can you say more about how these funds support integration 
efforts in your district and what a reduced Federal investment 
in Title IV would mean to this work adding to what Dr. Darling-
Hammond said?
    Mr. CARRANZA. Absolutely. So they're critical funds that we 
use to support the efforts that are at the ground level. So 
District 15 is a great example of that. This is a community 
driven, parent-led, parent-voice level. We don't only want to 
engage our parents, we want to empower parents. And when you 
empower parents with a voice, and then you give them a 
mechanism through which they can not only have a process, but 
what comes from that process gets funded and gets implemented, 
you have now empowered parents to actually be able to advocate 
for their children which is what we all want. These funds allow 
us to be able to do that, to seed the funding, to have 
facilitation, to bring people together, have childcare, have 
food for parents that have worked all day. So they really are 
what we would call the equity innovation funding in our system.
    Ms. BONAMICI. Terrific, thank you. and, Mr. Losen, last 
year I wrote to Secretary DeVos opposing the department's 
decision to delay the equity and IDEA regulation which aimed to 
address widespread disparities between White students and 
students of color with disabilities. And I was glad to see that 
the district court in the District of Columbia vacated the 
department's delay of the rule.
    Unfortunately during her testimony before this Committee, 
the Secretary refused to commit to implementing the rule. Can 
you describe how enforcement of this regulation would encourage 
equity in education?
    Mr. LOSEN. Yes. So, the regulation requires that every 
state look at districts for racial disparities and 
identification for kids with special education as well as 
placement as well as discipline.
    And in fact, the leading reason why states currently 
identify their districts is for racial disparities and 
discipline. But that rescinding those regulations that they 
have since been restored because a Federal court said the 
reasoning was arbitrary and capricious. And it was all based on 
this fear of quotas that had no there, there.
    There is no evidence that they were able to cite to support 
that argument and I would point out they raise the same kinds 
of fear of quotas as well as the discredited research in 
reaching the--in removing the discipline guidance.
    Ms. BONAMICI. Okay. I--
    Mr. LOSEN. So it's really very disturbing.
    Ms. BONAMICI.--see my time has expired. I yield back, thank 
you.
    Chairman SCOTT. Thank you. I understand the gentleman from 
Virginia wants to go next. Is that because you have a conflict?
    Mr. CLINE. It is, Mr. Chairman.
    Chairman SCOTT. If you could send my regrets because I 
don't think I'm going to be able to make it.
    Mr. CLINE. Yes, Mr. Chairman.
    Chairman SCOTT. Thank you. Gentleman from Virginia.
    Mr. CLINE. Thank you, Mr. Chairman. I appreciate your 
leadership on this issue and I am thankful that as a Committee 
we are remembering the 65th anniversary of Brown v. Board.
    This court case holds significance for me because of the 
heroics of a young lady and fellow Virginian named Barbara Rose 
Johns. At the age of 16, Ms. Johns led a walk out of Moten High 
School, located in Prince Edward County, and she embodies the 
leadership and bravery that we should instill in current and 
future students.
    Her walk out was one of the five cases, the Davis v. County 
Board of Prince Edward County that was rolled into Brown v. 
Board but it held the distinction of being the only student 
initiated case and it's significant because her attorney, one 
of her attorneys, Oliver Hill, his childhood home was in 
Roanoke in my district.
    She is a shining example of the importance of ensuring that 
all students have access to a quality education and the very 
significance of that fight. And for her contributions and many 
others, I will continue to fight to protect opportunities for 
all students.
    So given that, Ms. White, you talked in your testimony 
about the need to be empowered as a parent who is trying to 
give the best opportunities to your children. What is the 
effect on parents when they feel disempowered and left with no 
choices with respect to their children's education?
    Ms. WHITE. When one feels disempowered, there, the 
motivations to go on sometimes is lacking and so that's why it 
is extremely important for parents to feel empowered.
    At the school where I work currently, one of the things 
that we say is that old adage that children who are loved at 
home come to school to learn, and children who aren't come to 
school to be loved. And so we are creating environments or need 
to create environments for families not only to feel empowered 
in their educational choices, but to feel empowered as human 
beings so that they treat their families better so that their 
children when they come to school are better able to learn.
    Mr. CLINE. You mentioned that Brown v. Board was intended 
to empower parents. How can we as legislators fight to protect 
what others like Barbara Rose Johns have fought for and 
continue to expand opportunities for all families?
    Ms. WHITE. I'm sorry, I don't want to take away your time 
but I need to hear that again.
    Mr. CLINE. How can we as legislators help fight to protect 
what others like Barbara Rose Johns have fought for and 
continue to expand those opportunities for all families?
    Ms. WHITE. I have heard several examples of things that 
have been working in various forms in order to desegregate 
schools and legislators need to know that it hasn't worked 
thus--some of the things haven't worked thus far and the only 
reason that I mentioned school choice is that it seems to like 
be a transition or something to use in the interim until we get 
to that ideal place where there, regardless of where a student 
goes that they receive that excellent education.
    Mr. CLINE. Thank you very much. Mr. Chairman, I yield back 
the balance of my time.
    Chairman SCOTT. Thank you. Gentleman from California, Mr. 
Takano.
    Mr. TAKANO. Thank you, Chairman Scott, for this very 
important and timely hearing of this landmark case. Brown v. 
Board of Education is very important to me as a person of color 
and as a former teacher. My goal every day that I was in the 
classroom was to prepare my students for success. Immediately 
following the Brown decision we saw immediate results in the 
shrinking of the achievement gap as integration continued. 
Unfortunately, we are getting further away from that goal 
because of intentional attacks on civil rights by various 
administrations.
    Chancellor Carranza, New York City was--is one of the 
largest school systems in the country. It is also one of the 
most segregated systems and I say that not as a criticism, it 
is just a statement of fact and it is reflective of what we are 
seeing across the country. So I'm not singling out New York 
City.
    How do you suggest that we reverse the trend of 
resegregation that we are currently seeing in the schools 
across the country? Specifically what roles should the Federal 
Government take?
    Mr. CARRANZA. Thank you, sir. No offense taken. Yes, it is 
true so we are taking it on head on. The role of the Federal 
Government as I have mentioned in my testimony is we have to 
have the guidance in place, the guidance and the rules by which 
we are looking at who we serve is critically important. In a 
system like New York City where 70 percent of the students are 
Black and Latino students, the systems, the structures, the 
policies that tend to either uplift students, those particular 
students, all students, but the systems policies and protocols 
that we have in place that tend to not support those students 
we need to look at.
    And we know that in admissions policies, we know that in 
disciplinary policies, we know that when you have a propensity 
to suspend certain types of students disproportionally or to 
identify a disproportionate numbers of students for specialized 
programs like students with disabilities, et cetera, you have 
to look at the protocols and systems that generate those kinds 
of results.
    The role of the Federal Government is critical in keeping 
us accountable, keeping states accountable. This can't be a one 
by one effort. It has to be a systemic effort and the role of 
the Federal Government is critically important in my opinion.
    Mr. TAKANO. Well, we also know that as the Federal 
Government has stopped enforcing civil rights, the progress 
that was made to shrink the achievement gap stalled. In 
California, high achievement gaps still remain between African 
American and White students as well as Latino and White 
students.
    Chancellor, what do you think--do you think it is possible 
to make progress on the achievement gap without addressing 
school segregation?
    Mr. CARRANZA. I think they are inextricably linked because 
schools are microcosms of society and students walk through the 
threshold of our schools and they bring with them their 
experiences that are learned and lived experiences where they 
come from so they are inextricably linked.
    What we do have in the school system is the ability to 
create empowering environments, uplifting environments. So you 
can't separate the two.
    Mr. TAKANO. What does it mean for children of color who 
suffer the repercussions of widening achievement and 
opportunity gaps?
    Mr. CARRANZA. We are robbing the very future of this 
country of future talent. So the implications are literally a 
matter of life and death and as the research has shown that 
when you exclude a student from an educational environment when 
the first option is to kick them out of school, you set them on 
a path that many have referred to as a school to prison 
pipeline.
    Instead of funneling kids into the school to prison 
pipeline, why don't we keep students in school and continue to 
educate? That's really the genesis of what we are talking 
about.
    Mr. TAKANO. I recently saw some statistics put forward by 
Professor Chetti of Harvard and he--his data would seem to 
imply. He uses data and seemed to imply that this was--that 
segregation, the segregated neighborhoods also means a 
reduction of income mobility. It's not just the school to 
prison pipeline but income mobility is also ample. Would you 
agree with that?
    Mr. CARRANZA. I would.
    Mr. TAKANO. Mr. Brittain, in your testimony you stated that 
housing policy can also play a role in integrating schools. We 
noticed high rent prices across this country ultimately forcing 
low income students and families into concentrated poverty. We 
also see in that concentrated poverty segregated schools. What 
can the Federal Government do to reduce discriminatory 
practices that consequently lead to segregated schools?
    Mr. BRITTAIN. The Federal Government can first reinstate 
those new regulations that would affirmatively further 
integration in fair housing that was developed coincidentally 
related though to the Obama Administration.
    It took 50 years from the 1968 Fair Housing Act to 2018 to 
pass those regulations.
    Housing is the number one cause of racial segregation in 
schools. Because most schools are designed to create student 
assignment plans base upon neighborhood lines. That's why among 
other things, we who seek to pursue greater integration in 
quality education move those lines to choice, the kind of 
choice that Dr. Linda Darling-Hammond mentioned such as in 
magnet schools. And the kind of choice such as I mentioned in 
creating voluntary integrated school assignment plans for 
quality education and reduced racial isolation. So yes, we must 
link housing integration inextricably with educational 
integration.
    Mr. TAKANO. Mr. Chairman, I'm sorry I went over, I yield 
back.
    Chairman SCOTT. From Kansas, Mr. Watkins.
    Mr. WATKINS. Thank you, Mr. Chairman. I am honored to be 
here today to remember, recognize, and celebrate the 65th 
anniversary of the landmark Brown v. Board of Education 
decision.
    May 17, 1954, the Supreme Court decision ruled legal 
segregation unconstitutional on the grounds that separating--
separate educational facilities based on race are anything but 
equal.
    Mr. Chairman, I am honored today specifically because by 
this hearing's own title, we are remembering icons of the civil 
rights in the United States who call Topeka, Kansas home, just 
as my family and I do.
    Linda Brown was just 9 years old in 1950 when her father 
Oliver Brown enrolled her into the all-White Sumner Elementary 
School which afterwards she was denied access. This bold and 
defying action as well as the actions of many others from 
around the country are why Linda Brown and her family because 
the namesake of a ruling so instrumental to the tearing down of 
barriers of state-sanctioned segregation.
    In place of repugnant and blatantly immoral segregation 
laws, this ruling would seek to usher in a new atmosphere of 
opinions, integration in communities of understanding. Linda 
Brown's legacy as well as the legacies of those courageous 
individuals who joined the Browns, families and students from 
Delaware, South Carolina, Virginia, and the District of 
Columbia represent the very best that our Nation has to offer. 
It is therefore with great reverence and respect that we should 
also remember Linda Brown today, as nearly one year ago on 
March 27, 2018, she passed away in my hometown of Topeka, 
Kansas. She will be loved, she will be most assuredly missed. 
However, her legacy should not be in vain and continuing to 
build on her work of equal education options for all is an 
honor I'm proud to work towards.
    So Ms. White, in your testimony you stated that Brown v. 
Board of Education, the decision was meant to empower parents 
like Oliver Brown sought to be in 1950 by enrolling Linda into 
the Sumner Elementary Schools. Could you elaborate on your 
points more please, ma'am?
    Ms. WHITE. Certainly. As we think about Brown v. Board of 
Education, we--many of us recognize that it is the most 
important civil rights issue of this era. And there are various 
ways to come to this. I mentioned that there was not a one size 
fits all for all jurisdictions, for all districts but 
empowering parents to make the choices that they have available 
at that time goes a long way to having equality in education.
    Mr. WATKINS. Thank you so much and thank you, Mr. Chairman, 
I yield back.
    Chairman SCOTT. Thank you. The gentlelady from North 
Carolina, Ms. Adams.
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you to the 
Ranking Member as well for holding this hearing and to the 
witnesses for your testimony. Thank you for being here today. I 
do want to acknowledge the 65th anniversary of Brown v. Board 
of Education, not a happy birthday I think but I do want to 
acknowledge it and to speak to the frustration that I feel due 
to its unfulfilled promise.
    Many of you may know I am from Greensboro, North Carolina 
and I lived there for a number of years. Taught as a professor 
at Bennett College, raised my children there. They all went to 
public schools, did quite well.
    It's also the home of the Greensboro Four and the Nation's 
first sit-ins. I'm a product of that movement and of Brown v. 
Board and myself and our Nation I believe are better off for 
it.
    The problem I see is that policy makers have lost what 
Brown v. Board means, it's emphasis on data-driven research, 
its recognition that separate can never be equal. Its challenge 
to policy makers to ensure that all Americans regardless of 
race have equal access to one of our greatest civil rights, 
education. A right that W.E. B. Dubois talked about when he 
said of all the civil rights for which the world has struggled 
and fought for 500 years, the right to learn is undoubtedly the 
most fundamental.
    After the Board v.--the Brown v. the Board of Education of 
1954, there was massive resistance to school desegregation in 
the South including county base school districts breaking off 
from their larger school districts to resist integration.
    We currently see this happening across the country 
including unfortunately in my own Congressional district in 
Charlotte Mecklenburg, a district that were pioneers in school 
integration efforts.
    Ms. Darling-Hammond, can you describe for us the racial and 
the economic impact of school secession?
    Ms. DARLING-HAMMOND. I was thinking about that before you 
said it because it is occurring in North Carolina and other 
places where in a county school district, a little enclave will 
seek to secede, usually a small White enclave resegregating the 
schools and taking greater wealth which accrues to the property 
taxes in that arena with them. So it is a problem both for 
economic equality for the quality of schools in that county and 
for integration.
    Ms. ADAMS. Okay. Yes, I heard the word choice used and I 
wonder if you would just comment briefly about that in terms of 
Brown v. Board of Education and its intent.
    Ms. DARLING-HAMMOND. Well, I think I just made the comment 
a few moments ago that reinforced Congresswoman Fudge's point 
that quality is not about choice. It's about a requirement for 
every single school so the goal has to be that every school is 
worth choosing.
    That is to say every neighborhood school which is the most 
popular choice for parents is invested in a way that the 
question is perhaps if you have a different philosophy or 
something, you might in New York City among the district run 
public schools go to the arts magnet or something like that but 
that, there is a good neighborhood school in every 
neighborhood, that is the plot promise--
    Ms. ADAMS. Right, thank you.
    Ms. DARLING-HAMMOND.--of Brown.
    Ms. ADAMS. Let me move on, I'm running out of time. To 
Chancellor Carranza, thank you for what you do to address the 
issue in our Nation's largest public school system. A major 
contributor to racial segregation in public schools has been 
decades of White flight. The movement of White families from 
urban centers to suburbs where the schools are better.
    So can you--can local and State leaders or how can we 
overcome this challenge to achieve more racially diverse 
schools and can you tell us a little bit about what you are 
doing in New York?
    Mr. CARRANZA. Thank you, yes. So the issue of parents 
wanting a good school, I want to emphasize what Professor 
Darling-Hammond has just said about every school in every 
neighborhood should be a school worth choosing.
    By that we mean there is programing that is not only 
supported but desired by the community. We are investing in 
that kind of programming in our school system.
    In the New York City Department of Education where we have 
over 1800 school choices, talk about choice. There is choice 
for pretty much anything you want to do. The issue then becomes 
how do students and parents know what those choices are? How do 
we provide them with the ability to avail themselves of the 
choices as they make those particular choices.
    For policy makers both at the local, State and Federal 
level, it's incredibly important that in the spirit of Brown v. 
Board of Education we are tackling the issue of segregation. 
And unfortunately there are policies that are promulgated and 
lack of guidance that is not put forth that contribute to that 
resegregation of schools.
    Ms. ADAMS. Right, okay. Well, thank you very much. I'm 
about to run out of time so, Mr. Chairman, I will yield back.
    Chairman SCOTT. Thank you. The gentleman from Wisconsin, 
Mr. Grothman.
    Mr. GROTHMAN. Thank you. Mr. Pierre, thanks for being here. 
You got some kind of guts in here, you are mentioning things 
that aren't mentioned by some of the other witnesses. And I 
will comment on a couple of them here.
    In your testimony, you say these problems are aggravated of 
course in communities with high rates of family dysfunction. 
Could you elaborate on that a little bit?
    Mr. PIERRE. If you were to visit predominantly--some 
predominately minority communities in New York City, certainly 
not all, you would find I think that there is a correlation 
between students--there is a correlation between behavioral 
problems and broken families.
    Someone here I think it was Ms. White who said that if 
students who don't have love at home they come to school in a 
very bad mood and I think that's likely true.
    Mr. GROTHMAN. We have a lot of people, other people here 
who are experts. Has anybody--Mr. Pierre thinks that maybe some 
of the problems for some of these kids at school are due to the 
families they are from, the family structure. Are there any 
studies on that to show if that's a big--if that could be a 
cause of gap between test scores or graduation or whatever?
    Mr. PIERRE. If I can just say many studies have shown for 
years that students who come from two parent households do 
better with the social of the--agenda of the Democratic Party 
forbids them from promoting two parent households.
    Mr. GROTHMAN. I know we have a lot of programs out there 
kind of discouraging forming a two parent families. Why do you 
think with all the people asking questions here that topic 
never comes up?
    Mr. PIERRE. I have no clue. I'll be 25 in July. I have 
spent my entire life wondering why progressives, Democrats, 
don't speak more about the dissolution of the Black family.
    This is something that has been going on since 1963, it's 
something that is now happening in many White families. It just 
doesn't make sense to me that you could tell an entire 
community that 70 percent of births out of wedlock is 
acceptable. It's not.
    Mr. GROTHMAN. And you think that can result in the children 
then not doing as well in school.
    Mr. PIERRE. Absolutely. And I think that as a country we 
take, we don't take Black Americans seriously if we allow some 
of these cultural problems to persist.
    As I said earlier, I mean, someone like Barack Obama went 
to a private school in Hawaii. His Black experience is totally 
different than mine. My mother gave birth to me just months 
after her 18th birthday and she did an okay job but she didn't 
always have all the answers.
    Mr. GROTHMAN. Okay. Well, it is interesting. You have been 
in a variety of New York schools, a variety of schools in North 
Carolina so you are certainly qualified and I, like I say it is 
a mystery to me not only on this topic but other topics why 
that's not brought up by people who purport to claim that they 
want to solve some problems here.
    You say something else. In many cases, students are 
influenced by mainstream culture which often encourages 
minority youth towards transgressive behavior. Do you want to 
elaborate on that a little bit?
    Mr. PIERRE. Yes. Henry Gates Lewis Jr., a prominent African 
American studies scholar from Harvard University once observed 
that at some point in the 60's it became fashionable for 
members of the Black and upper class and middle class to aspire 
to a more authentic idea of Blackness which in the 60's became 
urban, rebellious against the 1960's.
    Gates saw how terrible this was for the Black community and 
he said, you know, by the 1990's you have Tommy Hilfiger 
pushing the thug life and the gangster life. Rap music of 
course for years is starting to be a bit more female friendly 
but for years it encouraged poor treatment of women, it 
encouraged secular values, not going to church, an emphasis on 
material things. I mean, yes.
    Mr. GROTHMAN. Wow.
    Mr. PIERRE. If--
    Mr. GROTHMAN. I wonder why these artists are promoted then 
in the popular culture like some geniuses who should be 
followed around? Can you guess why the popular culture, the 
people who decide who is going to be on the cover of the big 
magazines keep promoting these people? I mean, is there?
    Mr. PIERRE. It's what sells. I don't think they take Black 
Americans seriously. It's embarrassing to me when I hear people 
say that Black students can only get a good education in a 
White school.
    It seems to me that Black Americans who have a noble 
history in this country should have some role in making our 
communities attractive so that people want to come to us.
    Mr. GROTHMAN. One more question. I am sorry they only give 
me 5 minutes. Just playing around looking at the numbers, it 
appears as though the District of Columbia if it were a State, 
would have I think the fourth or fifth highest spending per 
pupil in the country. Their test scores are the lowest in the 
country.
    If money is the answer to education, how do you explain the 
Washington, D.C. schools? And we will give it to, I don't know, 
Dr. Darling?
    Ms. DARLING-HAMMOND. It's what happens when Congress tries 
to run a school system.
    Mr. PIERRE. We agree.
    Mr. LOSEN. If I could also respond to your earlier 
question?
    Mr. GROTHMAN. That is okay, I am out of time.
    Chairman SCOTT. Go ahead.
    Mr. LOSEN. Yes. So I think it's--we do see a pattern that 
racially isolated schools tend to adopt much harsher discipline 
policies, including some charter schools that have embraced 
this broken windows philosophy that's very--it's racially 
oppressive.
    We know about it from Ferguson and the problem with that is 
it--you're just kicking kids out of school right and left for 
all of these minor offenses. And treating kids as if you 
believe they are your future criminals.
    And there have been charter schools like Achievement First 
that have been investigated by OCR and settled and have changed 
their policies. They've said themselves that was a misguided 
approach.
    Mr. GROTHMAN. Mr. Losen, you are not talking about what Mr. 
Pierre talked about at all.
    Mr. LOSEN. So on--
    Mr. GROTHMAN. You are trying to change--
    Mr. LOSEN. So on dysfunctional families though, there are--
their children will come from who have been exposed to domestic 
abuse. We need to take all comers. Schools need to have trauma-
informed responses.
    I don't see how it makes any sense if you think that the 
problems in the home either because of domestic abuse or kids 
who are in dysfunctional homes how is sending more kids home 
out of school going to solve that problem?
    Mr. PIERRE. I guess my only response to that is that it 
starts with a cultural change at the bottom and not just 
through institutions and government.
    Mr. GROTHMAN. Keep swinging, Mr. Pierre. Thanks.
    Chairman SCOTT. Gentlelady from Pennsylvania, Ms. Wild.
    Ms. WILD. Thank you, Mr. Chairman. I would just note that 
the testimony of Mr. Pierre at age 25 fails to note that a 
better education has been closely correlated to increased 
stability in families.
    Having said that, I am also from Pennsylvania as was one of 
my colleagues on the other side of the aisle, who asked two 
questions. And this is for Professor Brittain.
    Ed Build a nonprofit organization that you are undoubtedly 
familiar with, focuses on common sense and fairness in the way 
states fund public schools. And it has produced a report 
finding a $23 billion dollar racial funding gap between school 
districts serving students of color and school districts 
serving predominantly White students.
    In my district is the city of Allentown. It is the third 
largest city in Pennsylvania, and it is surrounded by school--
suburban school districts--the Allentown school district is 
surrounded by suburban school districts that are predominantly 
Caucasian and have a robust property tax base. Allentown, on 
the other hand, the fourth largest school district in 
Pennsylvania is 71 percent Hispanic, 15 percent Black, 10 
percent White. It is currently facing a $28 million dollar 
deficit for 2019/20.
    It has stated, the school board has stated that it may not 
be able to meet payroll. And they have a $60 million charter 
school bill and of course rising costs of English language 
learning predominantly because of an influx of students from 
Puerto Rico following the hurricane and of course special 
education.
    So with that as the backdrop, I would ask you, Professor 
Brittain, if you could describe some of the disparities that we 
see between the experiences of students attending schools that 
are primarily White compared to the experiences of students 
attending school, that are primarily comprised of minority 
students.
    And if you could in your answer, address the differences in 
outcomes for these students after they leave school. Thank you.
    Mr. BRITTAIN. Congresswoman Wild, I would say that what you 
articulated is the 21st century form of what Brown v. Board of 
Education was 65 years ago. Brown dealt with the question of 
race and it was primarily White and Black.
    Today in the 21st century, we are dealing with concentrated 
poverty and class and just as de jure segregation, that is by 
law for Whites to attend White schools, non-Whites to attend 
non-White schools, today that barrier is the district boundary 
line.
    And what you described in Allentown and its surrounding 
districts is what Connecticut through its supreme court case in 
the 1996 Sheff v. O'Neill said was the boundary line between 
urban and suburban between some integrated and affluent and 
achieving and some poor and some highly racially isolated 
school districts and that was the cause of the inequality 
education. Therefore that must be the remedy. And that is where 
we are today.
    Linda, did you have a few more statistics on those 
disparities? By the way, I have always said I know where my 
legal expertise on educational equality ends and my ignorance 
on sound basic educational policy begins. And therefore I've 
always surrounded myself in my pursuit for legal equality in 
education with intellectual scholars like Linda Darling-
Hammond.
    Ms. DARLING-HAMMOND. That's very kind. Just in a word, the 
outcomes of that segregated experience are that we know that 
children who have been to integrated schools which typically 
also do have greater resources have much better graduation 
rates, much better achievement and higher wages later in life 
and lower poverty rates. So we have a lot of evidence about 
that.
    My colleague, Dr. Rucker Johnson, just did a book, Children 
of the Dream, I recommend it to you and it really lays out that 
whole set of--
    Ms. WILD. And can we assume that during their in school 
experience, that students in these school districts that are 
suffering financially and have become de facto segregated are 
having fewer elective courses, lower rates of teacher 
satisfaction?
    I mean, I just mentioned that the city of Allentown may not 
be able to meet payroll. One can only imagine how that affects 
the ability of teachers to teach.
    Ms. DARLING-HAMMOND. Cancelled courses, larger class sizes, 
greater number of unqualified teachers which gets back to the 
D.C. question that was asked earlier. High, high proportions in 
D.C. of teachers who are not trained. Same thing in schools 
like the ones that you are describing in Pennsylvania.
    Ms. WILD. Older text books, fewer field trips.
    Ms. DARLING-HAMMOND. All of that.
    Ms. WILD. All of those kind of things.
    Ms. DARLING-HAMMOND. And that's been documented over and 
over again.
    Ms. WILD. Thank you. I yield back. Thank you, Mr. Chairman.
    Chairman SCOTT. Thank you. Gentlelady from Washington, Dr. 
Schrier.
    Ms. SCHRIER. Thank you, Mr. Chairman, and thank you to all 
of our witnesses today. Thank you for coming.
    I am a child in the 1970's and it was during my elementary 
school years that this great experiment in busing began and so 
my elementary school leader became a magnet school in some of 
the ways that we talked about all in hopes of integrating our 
schools, in giving every child a shot at their best possible 
life.
    You know, I also saw some of the backlash to this. The so-
called White flight, many of my fellow students left to go to 
private schools and so I saw both sides of this.
    And one of the reasons that I joined this Committee on 
education and labor is that kids don't get to pick their 
parents, they don't get to pick the number of parents they 
have, they don't get to pick the color of their skin, or their 
zip code, or their income level.
    And as a pediatrician, I take care of kids from all walks 
of life, and we all know that giftedness does not know 
economics. Giftedness does not know the color of your skin but 
what does make a difference in your ultimate outcome is whether 
you can use that giftedness and whether you get the education 
that will really launch you into success.
    And so I consider it my job here to make sure that every 
child gets his or her best chance and early childhood education 
is part of that, but integrating our schools is also part of 
that, and your testimonies were incredibly compelling in laying 
out what a difference that makes and how it lifts all ships.
    And so, Chancellor Carranza, I wanted to ask if you could 
discuss why school integration is the appropriate strategy but 
also what you see as today's modern day barriers to achieving 
real school diversity.
    Mr. CARRANZA. Thank you. I would also just say I agree with 
you that high quality early childhood education is a game 
changer in many, many communities. In New York we have 
universal pre-K. We've added 3-K. And it's, and we are seeing 
how that is changing the game.
    You know, it's interesting because many folks that I will 
talk to will say I am all about integrating our schools. I want 
integrated schools but they stop when it means that their 
children go to school with other kids of color. So the 
political will that I've talked about is incredibly important. 
We can't just say we are for it and yet we won't go to that 
diverse school, we won't go to that school in that quote 
unquote neighborhood.
    So this is critically important. And as we look from an 
equity perspective in investing our resources in developing 
programs and good options in neighborhood schools, we are 
looking at historically underinvested neighborhoods that we're 
making those investments in because it is critically important 
that local school becomes a hub for that community that is a 
good choice in that community.
    So they're inextricably linked but they are incredibly, 
incredibly tied to the notion that you can't just say you want 
to have integrated schools, you have to also make that a 
reality.
    Ms. SCHRIER. Thank you. I also wanted to ask Dr. Darling-
Hammond about the segregation that we see now based on 
economics that some say that segregation persists today because 
of individual choice, people choose where to live, people self-
segregate and that people of color will choose not to live or 
learn alongside White neighbors. Could you please comment about 
this being a so-called choice?
    Ms. DARLING-HAMMOND. There is a lot to say about this as 
well, but the history of segregation and housing policy is very 
extensive. It still goes on today. And in fact we are waiting 
still on rules to correct some of the lack of fair housing 
building as well as segregation in sales processes of housing 
and so on. So I don't think that's a choice. People live where 
they can live and then they go to the schools that are 
available to them.
    And one of the things that will encourage greater 
integration within that context in addition to housing policy, 
is building and investing in good schools in every neighborhood 
so that it will be easy for those people that Chancellor talked 
about that to want to go to a school that is going to be a high 
quality school perhaps in a neighborhood other than the one 
that they live in.
    Ms. SCHRIER. And I, it looks like I have just a few seconds 
left so I thought I would comment just for a moment about 
blaming education on social ills, looking for an excuse to not 
integrate classrooms by looking at social ills or the number of 
parents in a household.
    We all want stable households. We all want parents who 
support and love their children. There is no question there. 
But what we do know is the kids don't get to pick their 
background, and that the best thing that we can do for them is 
put them in a school where they can have positive peers, 
positive role models, and teachers.
    One adult in a child's life who loves them and guides them 
is the remedy and that will then parlay them into the future 
that they really need to break the cycle.
    Chairman SCOTT. Thank you. The gentlelady from Connecticut, 
Ms. Hayes.
    Ms. HAYES. Thank you, Mr. Chair, and I would like to thank 
all the witnesses for being here today. In my Congressional 
office, I have a Norman Rockwell painting hanging and it's the 
problems we all live with. We all live with. And it is a 
portrait of Ruby Bridges walking to school just six years after 
the Brown v. Board of Education decision. I look at this 
painting every day to remember why I'm here. I remember that 
while this painting depicts something that happened 60 years 
ago, it could truly talk about what we are going through today.
    Inequity in education still exists.
    And we further promote division with comments like keep 
swinging in a hearing where we are looking for solutions to the 
problems that we all live with.
    Today, this Department of Education is openly hostile to 
civil rights enforcement and school integration and actively 
advancing policy that will continue to push some students 
forward while leaving so many behind.
    In a hearing before this Committee, Secretary DeVos hailed 
school choice as the silver bullet, ignoring the fact that 
choice often leads to more disparity, more segregation, more 
inequity.
    We heard the Secretary speak of the one million students 
who are on wait lists for charter and choice schools. I remind 
everyone that we have a responsibility to educate 50 million 
plus students, not just one million. What happens to the rest 
of those kids?
    Ms. White, I hear you, and I agree with you. My challenge 
is that the opportunities that you speak about for your son 
Michael, I want that for all students whether they have a 
parent at home or not. So we have to make sure that every 
public school works, that every student has access to those 
opportunities.
    As an educator, as a mother, I always ask myself one 
question, a guiding question. Is this the education I would 
want for my child? If I couldn't answer yes to that every 
single time, then I had to figure out something different to 
do. And I would challenge everyone here today to ask yourself 
that same question. Is this the education you would want for 
your child? Don't worry about my child, for your child.
    I challenge my colleagues on the other side of the aisle to 
ask themselves that question. Because what we are talking about 
is pockets of excellence. People talk about one school or one 
district or one community or one place where it worked. Is that 
what you would want for your child to be educated in all of 
those other places?
    So my question today is for Mr. Losen. In the final report 
of the Federal commission on school safety that was prepared by 
Secretary DeVos, it recommended a rescission of the 2014 
discipline guidances. In its justification for this 
recommendation, the report cited research that seemingly 
suggested that there are innate behavioral differences between 
White students and students of color.
    Can you comment on these claims, the research supporting 
them and what it means for the Federal Government to include 
them in official documents?
    Mr. LOSEN. Yes. I think it's disgraceful that research was 
cited. That study was refuted by another very conservative 
researcher as I mentioned earlier who did the identical study 
with the same database but instead of just looking at whether 
students were suspended or not, they looked at how many times 
students had been suspended.
    Now there were all kinds of other problems with that study 
that should have raised red flags but that discredited the--
discredidation of the study happened before it was cited as a 
reason to rescind the guidance.
    So reliance on that kind of flimsy information is the same 
kind of way of decision-making that was determined to be 
arbitrary and capricious when they tried to rescind the special 
education regulations on racial disproportionality.
    Ms. HAYES. Thank you so much. And that's not partisan. 
That's just if we all seek to improve outcomes for kids then we 
should be finding good information and conducting ourselves 
accordingly.
    I'm going to jump ahead to Professor Brittain who hails 
from my home State of Connecticut where I saw the Sheff v. 
O'Neill case play out and I have actually seen the results of 
it. What can we learn as a Nation from the lessons of the Sheff 
case? I mean, I know we still have some challenges and some 
things that we have to do on the ground level, but what can we 
learn to move forward so that almost as a model to improve 
outcomes?
    Mr. BRITTAIN. Good morning.
    Ms. HAYES. Good morning.
    Mr. BRITTAIN. Member Hayes and former National Teacher of 
the Year.
    Ms. HAYES. I know a little something about education.
    Mr. BRITTAIN. I say that all of the people who have been 
involved in the Sheff movement all these many years, many 
lawyers, many activists, many educators, certainly many 
parents, many students, all of which deserve far more credit 
than is given to many, we have learned as Rodney King said, 
can't we get along?
    We have learned from the beginning that we had a multi-
racial coalition seeking education. Somewhat jokingly, we had 
the first San Juan, Puerto Rico school district on the mainland 
of the United States. So we had to convince Puerto Ricans that 
it was their interest, not only pursue forms of bilingual 
education but also integration. We had urban and suburban and 
therefore, that is what I have learned in the 60 plus years 
since then.
    Ms. HAYES. Thank you so much. I am embarrassed that we are 
even having this hearing today, that we even have still 
continuing this discussion. I am sorry for going over, Mr. 
Chair, I yield back.
    Chairman SCOTT. Thank you. Gentleman from Maryland, Mr. 
Trone.
    Mr. TRONE. Thank you, Mr. Chairman. Earlier this month I 
had the opportunity to ask Secretary DeVos about her 
department; was addressing the issues that we are discussing 
today.
    I was concerned and disappointed when the Secretary dodged 
my questions twice about whether she believes racial 
segregation poses a threat to the educational opportunities for 
children of color.
    Dr. Darling-Hammond, I would like to pose the same question 
to you. Do you believe racial segregation in public schools 
poses a threat to the educational opportunity for children of 
color?
    Ms. DARLING-HAMMOND. Well, we have a lot of evidence that 
it does because segregation by race is typically in this 
country now also associated with concentrated poverty and 
under-resourcing of schools. So the combination places young 
people at risk in ways that are unnecessary since we know what 
we could alternatively be doing.
    And we have a few States that have made the investments 
that are necessary for equitable and paritable parity funding 
with the kind of strategies that Professor Brittain just 
described with early childhood education and qualified teachers 
and you see the achievement gap reduce and achievement for all 
students move forward.
    Mr. TRONE. The Secretary also responded then that every--
she is concerned about every student no matter where they are, 
or where they go to school. How does segregation negatively 
impact students of all races?
    Ms. DARLING-HAMMOND. Well, we can see in our society the 
desperate need for people to be able to work and live together 
productively and we are experiencing so many events that show 
that the segregation we have experienced is flaring up in adult 
life in very sometimes violent and unfortunate ways.
    Everyone benefits from being in an integrated setting and 
the studies show that not only is there better inter-group 
relations but more critical thinking, more problem solving, 
more capacity that people develop in the settings.
    Mr. TRONE. No question about it. In 2016, GAO found public 
schools have actually become more segregated by race in class 
anytime since 1960.
    Professor Britain, in your opinion what's the biggest 
reason behind this persistent racial segregation in education?
    Mr. BRITTAIN. As my dear colleague Gary Orfield of the UCLA 
civil rights project has traced, it's a combination of the 
abandonment of school integration, some of which we heard today 
by the executive branch of the Federal Government at times.
    Certainly in the abandonment of school integration and 
restrictions by the Supreme Court Justices, and further by 
various educational executives in the higher level of the 
Department of Education.
    Further, the segregation in housing is still the number one 
cause to the segregation in education and programs such as 
housing vouchers and programs to extend opportunities for 
advantage in living are all a factor in the continuing 
segregation 65 years after Brown v. Board of Education.
    Mr. TRONE. Mind boggling. 65 years we are still here. It's 
embarrassing. One issue we discussed today is the fact that the 
Department of Education is making it harder, not easier for 
schools to voluntarily address segregation issues. Chancellor, 
what do you see as the potential benefits for New York City 
students if the Federal Government were to increase its support 
for efforts diversified schools?
    Mr. CARRANZA. It would be symbiotic with the efforts that 
we are undertaking at a local level to increase the engagement 
process, to engage in the development of programming, to engage 
in the development of integrated integration plans in our city. 
What you need to have an alignment of both Federal, State and 
local laws and policies. We are taking care of it locally. We 
need to have that continuum at a Federal level as well.
    Mr. TRONE. In closing, when I asked Secretary DeVos about 
the rescission of diversity guidance, I was shocked to hear she 
was not familiar with the guidance that her own Agency had 
rescinded. Her own Agency.
    Even with the Administration's apparent hostility toward 
increasing student diversity, I am hopeful when I see students, 
students themselves across the country including those in my 
home area of Montgomery County, Maryland, organizing and taking 
bold efforts to achieve educational equity.
    I hope Secretary DeVos can learn a few things from you 
folks on this panel today and thank you for your leadership. 
Mr. Chairman, I yield.
    Chairman SCOTT. Thank you. We have a couple other Members 
on the way but I'll recognize myself at this time beginning 
with Dean Brittain.
    Dean Brittain, after the Kentucky and Washington State 
cases where the voluntary desegregation plans were thrown out, 
how difficult is it to actually voluntarily desegregate the 
case and how much of a disappointment was it that the opening--
opened doors expanding opportunities grants which gave 
professional technical assistance. How disappointing was the 
loss of those grants?
    Mr. BRITTAIN. As your fellow Congressman said in 
relationship to the Voting Rights Act, as John Lewis said it 
was a dagger in the heart of enforcing civil rights. It was a 
big, big loss.
    The 2007 Parents Involved in Community Schools was the 
biggest hit on school integration since Brown v. Board of 
Education in 1954. Nevertheless, though wounded, it continued.
    And when people turned to the Obama Administration, 
creation of guidance that it took them two years to create, 
from the time of the inauguration until 2011, all the civil 
rights communities participated with the government. Parents, 
children, civil rights advocates, policy makers.
    Chairman SCOTT. The money would have been used for 
technical assistance to develop voluntary plans that could 
withstand constitutional challenge is that right?
    Mr. BRITTAIN. That's correct.
    Chairman SCOTT. Now we have heard the charter schools 
actually make matters worse in terms of integration, is that 
right?
    Mr. BRITTAIN. That is correct.
    Chairman SCOTT. Now how have freedom of choice cases, 
freedom of choice plans faired in litigation over school 
integration?
    Mr. BRITTAIN. When we go back to the immediate post Brown 
era, 1955, '56, '57, it was that freedom of choice that was the 
first page of the decision after Brown where the Supreme Court 
struck down freedom of choice.
    It was freedom in theory but it was not freedom in 
practicality because 99 percent of all the Whites stayed at the 
White school. Only a few percent of the Black students 
transferred from the all Black school to the White school.
    So this is a modern day form of freedom of choice to say 
that by creating these charter schools and having no guidelines 
around where the schools are placed or the relationship to the 
student's assignments being taken in the public schools is like 
creating a new modern 21st century freedom of choice to 
perpetuate segregation in education.
    Chairman SCOTT. Thank you. Ms. Darling-Hammond, you had 
indicated that one of the reasons that African Americans do 
better in integrated schools systems, the schools are actually 
better. Have you seen--how often do you see low income schools, 
predominantly Black actually funded better than the nearby 
White schools?
    Ms. DARLING-HAMMOND. That's a very rare occurrence. 
Typically in at least 30 states you will see disparities going 
the other direction where concentrations of Black and Latino 
students in high poverty schools are funded at much lower 
levels than other schools around them.
    Chairman SCOTT. And what is wrong with dealing with 
problems in schools by letting a handful of students go 
somewhere else and not dealing with the underlying problems? 
What is wrong with that strategy?
    Ms. DARLING-HAMMOND. Obviously, the obligation is to every 
child and, you know, competition if it's a winners and losers 
game is not actually dealing with the promise of Brown which is 
high quality education for everyone.
    Chairman SCOTT. Thank you. And, Chancellor, you indicated 
when you integrated the schools, what happened to achievement?
    Mr. CARRANZA. The evidence is achievement raises for all 
students.
    Chairman SCOTT. Thank you. And, Mr. Losen, exactly what is 
defiance as a violation and why is what happened when you 
allowed people to be suspended for defiance and what happened 
after the, that policy was abolished?
    Mr. LOSEN. One of the problems defiance its really even 
broader category. Its disruption or defiance and in California 
well, one of the problems is that this allows for a great deal 
of perception and subjectivity.
    And where we have the kind of vague minor offenses that are 
very subjectively determined, we tend to see things like 
implicit racial bias play a much larger role in whose behavior 
is identified as being problems in the first place, and then 
who gets the response of an out of school suspension and there 
have been quite a few studies to show that Black students are 
actually treated more harshly for the same kinds of offenses. 
So when they eliminated that particular policy in Los Angeles, 
we saw a dramatic, and that was K-12, we saw a dramatic 
reduction in the use of suspension and an increase in days of 
instruction for the kids who are no longer suspended obviously, 
but an increase in graduation rates as a result.
    So this idea that, you know, to have--basically the idea is 
you have to close the discipline gap, if you want to close the 
achievement gap.
    Chairman SCOTT. Thank you. My time has expired. The 
gentlelady from Illinois, Ms. Underwood is recognized.
    Ms. UNDERWOOD. Thank you Mr. Chairman. 65 years ago the 
Brown v. Board of Education decision ruled that segregation in 
public education is unconstitutional. But as we know it takes 
real work to translate that equality in theory into equity and 
practice.
    And our responsibility in Congress is to ensure our amazing 
teachers and educators have the resources that they need to 
fully and equally invest in all of our kids.
    When I talked to Keith--when I talk to teachers at home in 
Illinois' 14th District, one of their top priorities on this 
issue is fixing the underfunding of Title I schools.
    So Dr. Darling-Hammond, how could adequately-funding Title 
I help advance equity in public education?
    Ms. DARLING-HAMMOND. Well, in many ways, that would include 
equitably funding by State as well as more adequate funding 
within States. And in those high poverty settings, if you can 
put the resources as is allowed under Title I into stronger, 
more qualified, more continuous teaching force, into better 
instructional programs, into the wrap around services and 
supports that are needed, you get much better outcomes and we 
have a lot of evidence about that.
    Ms. UNDERWOOD. Excellent. And so can you talk about some of 
the resources that students in these schools would have if 
Title I was adequately funded? And could it improve their 
access to mental health services or academic counseling in 
schools for example?
    Ms. DARLING-HAMMOND. Yes, I think particularly in schools 
that are identified for improvement, all of those uses of the 
funds are useful. Title IV also is the place where you can fund 
some of those comprehensive services.
    And again we have evidence that when you create the wrap 
around services with the instructional supports that are 
needed, achievement goes up for students pretty much across the 
board.
    Ms. UNDERWOOD. Thank you. Teachers in Illinois also need 
the Federal government to fully fund the Individuals with 
Disabilities Educational Act or IDEA. The Illinois Federation 
of Teachers estimates that public education for students with 
disabilities has been underfunded by $233 billion since 2005. 
Dr. Darling-Hammond, how could fully funding IDEA help address 
current inequities in public education?
    Ms. DARLING-HAMMOND. Well, students with disabilities are 
among those who are disproportionately failing in schools and 
also disproportionately disciplined and so on so clearly we 
need that.
    One of the key things is that we have a massive shortage of 
special education teachers across the country right now which 
means we have people in those classrooms who do not know how to 
teach in the extraordinary way that is needed for the students.
    So part of that investment should really be to return to 
the investments we once made in teacher education, teacher 
residency programs, investments in service scholarships and 
forgivable loans to get teachers prepared and really ready to 
do the work in those classrooms.
    Ms. UNDERWOOD. Workforce development remains incredibly 
important. Thank you. Public education is so important to our 
community. People in our community have consistently voted to 
raise their own taxes to fund our public education and because 
of the resources that our schools have in Illinois 14th, and 
their amazing students, parents, and employees, our public 
schools are the pride of our district. I am so proud and 
impressed by the efforts that parents and school board members 
in our school districts have made to improve diversity and 
inclusion and so I want to help ensure that school districts 
all across our county have the ability to make those same types 
of improvements.
    Dr. Darling-Hammond, what are the challenges that educators 
face in designing and implementing district-wide plans to 
reduce inequity in public education?
    Ms. DARLING-HAMMOND. Well, inequities in this country sort 
of spiral down from the top. We have inequity in the 
distribution of Federal funding, state funding, and sometimes 
district funding as well as the provision of quality programs. 
So as educators are working to really address those 
inequalities, they need access to reasonably small class sizes, 
to the materials that they need to teach which many of them 
lack and pay for out of their own pocketbooks, as well as to 
the opportunity for schools to be equitably available to kids 
across their districts.
    Ms. UNDERWOOD. And how can we help alleviate those 
challenges so that issues of inequity can be addressed broadly 
throughout our public education system?
    Ms. DARLING-HAMMOND. I think there are three major things. 
One is equitable funding both at the State level and the 
district level. We have a lot of work to do on that. Another is 
investments in early childhood education for all kids so that 
they come in without an achievement gap at kindergarten. A 
third is investments in the training and equality of teachers 
of themselves and this ongoing support for their work so that 
they can do their best work in that setting.
    When you put those together and you create equitable 
systems, I think we will also see the kind of desegregation 
that we are talking about here because parents will want to 
choose the schools that provide all of these resources.
    Ms. UNDERWOOD. Well, thank you for raising those points. 
You know, investment is incredibly important as is thoughtful, 
intentional leadership at all levels in our education system 
from that school board all the way up to the Federal Department 
of Education.
    I am really grateful and appreciative that our local school 
district where I live, District 204 in Illinois has an 
administration that has created a parent diversity council to 
surface up these kinds of challenges that are happening 
locally. If they are willing to make the investment of money, 
right, there is still opportunities for improvements. And so 
they're furthering those actions but we don't overlook on this 
Committee the need for those types of investments and I thank 
you for offering your expertise to the Committee today. Thank 
you. I yield back.
    Chairman SCOTT. Thank you. Before we close I ask unanimous 
consent that a report 2016 GAO report that's been referred to 
frequently today entitled The Better Use of Information Could 
Help Agencies Identify Disparities and Address Racial 
Discrimination.
    A 2018 GAO report entitled Discipline Disparities for Black 
Students, Boys and Students with Disabilities.
    A report, Long Run Impacts of School Desegregation and 
School Equality on Adult Attainments by Rucker C. Johnson.
    The Federal Role in School--the Federal Role in School 
Integration, Brown's Promise and Present Challenges by the 
Learning Policy Institute, Dr. Darling-Hammond's organization. 
A Bold Agenda for School Integration by the Century Foundation 
23 billion by Ed Build. Fractured the Accelerating Breakdown of 
Americas School Districts by Ed Build and Lost Instruction to 
Disparate Impact of the School Discipline Gap in California the 
UCLA Civil Rights Project, Mr. Losen's organization.
    At this point, do the Ranking Member have closing 
statements?
    Mr. ALLEN. Yes, Mr. Chairman. Thank you and thank you to 
the witnesses for being here today. This is a very serious 
topic. It is clear we have a lot of work to do at every level 
of educational governance to ensure the promise of Brown is 
fulfilled for every child.
    I request unanimous consent to submit a letter from 
Virginia Walden Ford for the record. Mrs. Ford is a parent 
advocate who has spent more than 20 years fighting to empower 
parents to pursue educational opportunities for their children. 
In her letter, Mrs. Ford writes the same schools that we fought 
hard to get into in the 1960's after the Brown v. Board of 
Education decision have become the schools we most diligently 
find a way to get minority children out of.
    Those are her words and I couldn't agree more than any 
effort to fulfill the promise of Brown has to include a 
commitment to parent empowerment.
    I also have two observations to share about some of the 
criticism of the Department of Education that we have heard 
here today. Accusations have been made that the department is 
not enforcing Title VI regulations.
    First, the regulations in question are still in effect. 
They still have the force of the law. The department is still 
committed to enforcing them.
    Second, and perhaps more importantly, this department 
continues to investigate claims under those regulations 
consistent with past practices.
    The case processing manual for the Office for Civil Rights 
is available online. Here is how that manual describes the 
approach that should be taken when statistical disparities 
exist.
    Generally statistical data alone are not sufficient to 
warrant opening an investigation, but can serve to support the 
opening of an investigation when presented in conjunction with 
other facts and circumstances.
    Now let's compare that language with the language from a 
version of the case processing manual from the previous 
administration.
    The February 2016 version of the manual states: generally 
statistical data alone are not sufficient to warrant opening an 
investigation but can serve to support the opening of an 
investigation when presented in conjunction with other facts 
and circumstances.
    To be clear, the language is identical. As I said, there is 
more work to be done. And I am encouraged to hear about efforts 
in New York City and around the country to respond to challenge 
raised by this hearing.
    Committee Republicans welcome any genuine effort by the 
majority to engage in bipartisan conversations about how to 
address that, these many issues that have been raised today. 
and, Mr. Chairman, I submit this letter and ask that you--
    Chairman SCOTT. Without objection.
    Mr. ALLEN.--present it to the record. I want to again thank 
all of you. We are in an unprecedented time. We have the 
greatest economy in the world. We have more jobs than we have 
people seeking jobs. This is going to be a tremendous challenge 
to our educators.
    We don't want any American to fall through the cracks. 
There is so much opportunity--I tell our young people there is 
so much opportunity out there today I wish I had it to do over 
again to be honest with you.
    But we want to make that available to every American and 
education is the way to do that and we need to figure that out. 
Thank you so much.
    Chairman SCOTT. Thank you. And I thank you for pointing out 
the language on disparate impact cases. What is in the language 
and what is in actual practice I think is what the actual 
practice is what needs to be evaluated.
    As my colleague from Virginia noted, Virginia was one of 
the four cases decided in Brown and one of the five cases 
decided that day. Unfortunately Virginia has a disappointing--
had a disappointing response to Brown v. Board of Education 
because as I indicated in my opening remarks, it is doubtful 
that any child may reasonably be expected to succeed in life or 
denied the opportunity of an education such an opportunity 
where the State is undertaken to provide it is a right which 
would remain available to all on equal terms.
    Apparently the part of that statement that Virginia noticed 
was where the State has undertaken to provide it when ordered 
to integrate what they did in Prince Edward County in several 
other locations in Virginia was just stop providing education 
to anybody. That was equal.
    But it's obviously made no sense and for several years, 
four years in Prince Edward, at least four years in Prince 
Edward County, there is no education at all except for the 
private academies. So we have a disappointing history, but I 
think we are making progress and we have to still pursue every 
avenue we can to make sure that people have that right which 
must be made available to all on equal terms.
    Today's hearing was long overdue. A conversation about 
inequity in education 65 years after the landmark decision we 
are still fighting to end racial discrimination and systemic 
inequalities that continue to undermine the opportunities for 
students of color.
    As discussed today, we have a critical role in closing the 
achievement gap and we need to make sure as our witnesses have 
reminded us, that working to desegregate schools and protect 
student civil rights can be difficult and uncomfortable. But 
the stakes are too high to ignore.
    So the government, Federal Government has a moral and legal 
obligation to ensure that all children have access to a quality 
public education to reach their full potential. If there is no 
further business to come before the Committee, the Committee 
stands adjourned.
    [Additional submission by Mr. Courtney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Chairman Scott follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
   
  
    
    United States Government Accountability Office (GAO) Report 
April 2016: https://www.govinfo.gov/app/details/CPRT-
116HPRT43624/CPRT-116HPRT43624
    United States Government Accountability Office (GAO) Report 
March 2018: https://www.govinfo.gov/app/details/CHRG-
116hhrg43625/CHRG-116hhrg43625
    Long-Run Impacts Of School Desegregation and School Quality 
On Adult Attainments: https://www.govinfo.gov/content/pkg/CPRT-
114HPRT43626/pdf/CPRT-114HPRT43626.pdf
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon at 1:18 p.m., the committee was adjourned.]

                          <all>
</pre></body></html>
